D072

Credit One Bank Platinum Visa®
17.99% Variable Monthly Purchase APR (WSJ Prime + 14.74%)
23.99% Variable Monthly Cash APR (WSJ Prime + 20.74%)
$0 Annual Fee
$10.00 or 3% Cash Advance Fee (whichever is greater)

D081

Credit One Bank Platinum Visa®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$75 Annual Fee first year, then $99 annually ($8.25 per month)
$5.00 or 8% Cash Advance Fee (whichever is greater)

D083

Credit One Bank Platinum Visa®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$75 Annual Fee first year, then $99 annually ($8.25 per month)
$5.00 or 8% Cash Advance Fee (whichever is greater)

D098

Credit One Bank Platinum Visa®
24.40% Non-Variable Monthly APR
$75 Annual Fee first year, then $75 annually ($6.25 per month)
$10.00 or 5% Cash Advance Fee (whichever is greater)

D099

Credit One Bank Platinum Visa®
24.40% Non-Variable Monthly APR
$39 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D217

Credit One Bank Platinum Visa®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$39 Annual Fee
$5.00 or 8% Cash Advance Fee (whichever is greater)

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank® and the corresponding logos are federally registered trademarks.

2021.06.30

D219

Credit One Bank Platinum Visa®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$95 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D223

Credit One Bank Platinum Visa®
23.99% Variable Monthly Purchase APR (WSJ Prime + 20.74%)
$0 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D224

Credit One Bank Platinum Visa®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$39 Annual Fee
$5.00 or 8% Cash Advance Fee (whichever is greater)

D232

Credit One Bank Platinum Visa®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$39 Annual Fee
$5.00 or 8% Cash Advance Fee (whichever is greater)

D233

Credit One Bank Platinum Visa®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$75 Annual Fee first year, then $99 annually ($8.25 per month)
$5.00 or 8% Cash Advance Fee (whichever is greater)

D241

Credit One Bank Platinum Visa®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$0 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank® and the corresponding logos are federally registered trademarks.

2021.06.30

D243

Credit One Bank Platinum Visa®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$95 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D246

Credit One Bank Platinum Visa®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$39 Annual Fee
$5.00 or 8% Cash Advance Fee (whichever is greater)

D248

Credit One Bank Platinum Visa®
24.40% Variable Monthly APR (WSJ Prime + 21.15%)
$39 Annual Fee
$5.00 or 8% Cash Advance Fee (whichever is greater)

D249

Credit One Bank Platinum Visa®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$95 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D250

Credit One Bank Platinum Visa®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$0 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D261

Credit One Bank Platinum Visa®
24.40% Non-Variable Monthly APR
$39 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank® and the corresponding logos are federally registered trademarks.

2021.06.30

D262

Credit One Bank Platinum Visa®
17.99% Variable Monthly Purchase / BT APR (WSJ Prime + 14.74%)
23.99% Variable Monthly Cash APR (WSJ Prime + 20.74%)
$0 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D263

Credit One Bank Platinum Visa®
24.40% Variable Monthly APR (WSJ Prime + 21.15%)
$95 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D264

Credit One Bank Platinum Visa®
24.40% Non-Variable Monthly APR
$75 Annual Fee first year, then $75 annually ($6.25 per month)
$10.00 or 5% Cash Advance Fee (whichever is greater)

D267

Credit One Bank Platinum Visa®
17.99% Variable Monthly Purchase / BT APR (WSJ Prime + 14.74%)
23.99% Variable Monthly Cash APR (WSJ Prime + 20.74%)
$0 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D269

Credit One Bank Platinum Visa®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$95 Annual Fee
$5.00 or 8% Cash Advance Fee (whichever is greater)

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank® and the corresponding logos are federally registered trademarks.

2021.06.30

D242

Credit One Bank American Express® Card
24.40% Variable Monthly APR (WSJ Prime + 21.15%)
$95 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D244

Credit One Bank American Express® Card
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$75 Annual Fee first year, then $99 annually ($8.25 per month)
$5.00 or 8% Cash Advance Fee (whichever is greater)

D245

Credit One Bank American Express® Card
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$0 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D247

Credit One Bank American Express® Card
24.40% Variable Monthly APR (WSJ Prime + 21.15%)
$39 Annual Fee
$5.00 or 8% Cash Advance Fee (whichever is greater)

D251

Credit One Bank American Express® Card
24.40% Variable Monthly APR (WSJ Prime + 21.15%)
$0 Annual Fee
$5.00 or 8% Cash Advance Fee (whichever is greater)

D252

Credit One Bank American Express® Card
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$39 Annual Fee
$5.00 or 8% Cash Advance Fee (whichever is greater)

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank® and the corresponding logos are federally registered trademarks.

2021.06.30

D255

Credit One Bank American Express® Card
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$95 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D270

Credit One Bank Six Flags® Rewards Visa ®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$39 Annual Fee
$5.00 or 8% Cash Advance Fee (whichever is greater)

D271

Credit One Bank Six Flags® Rewards Visa ®
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$0 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D272

Credit One Bank Wander™ Card
24.40% Variable Monthly APR (WSJ Prime + 21.15%)
$95 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D273

Credit One Bank Wander™ Card
24.40% Variable Monthly APR (WSJ Prime + 21.15%)
$0 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D275

Credit One Bank American Express® Card
24.40% Non-Variable Monthly APR
$39 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D276

Credit One Bank American Express® Card
24.40% Non-Variable Monthly APR
$75 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank® and the corresponding logos are federally registered trademarks.

2021.06.30

D279

Credit One Bank Best Friends® Card
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$39 Annual Fee
$5.00 or 8% Cash Advance Fee (whichever is greater)

D280

Credit One Bank Best Friends® Card
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$0 Annual Fee
$10.00 or 5% Cash Advance Fee (whichever is greater)

D281

Credit One Bank WWE® Card
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$49 Annual Fee
$5.00 or 8% Cash Advance Fee (whichever is greater)

D282

Credit One Bank WWE® Card
23.99% Variable Monthly APR (WSJ Prime + 20.74%)
$75 Annual Fee first year, then $99 annually ($8.25 per month)
$5.00 or 8% Cash Advance Fee (whichever is greater)

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank® and the corresponding logos are federally registered trademarks.

2021.06.30

CARD AGREEMENT

D072

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

17.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

17.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$0

Transaction Fees
• Balance Transfer

Either $10 or 3% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 3% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase and Balance Transfer APR equals the Prime Rate plus a margin of 14.74%. This corresponds to a
monthly periodic rate of 1.49917%. The Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This corresponds to a monthly periodic
rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
2

you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
3

For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
4

Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
5

partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
7

administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
8

In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of all Net Purchases made with
your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges. We will post a statement
credit to your Account within seven days after the end of the month based on the Net Purchases made with your Account from the 27th of the previous
month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the time the credit is to be posted, you
WILL NOT receive the credit. Cash back rewards have no cash value.
Net Purchases: Net Purchases are Purchases minus any returns, disputed charges, unauthorized charges, illegal or fraudulent charges or other
credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One cash
back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time. We will give you prior notice to the extent required by law.
Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.

10
Back to Top

06/21

D072

CARD AGREEMENT

D081

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

Paying Interest

You will be charged interest on Purchases, Balance Transfers and Cash Advances from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Fees
Annual Fee

$75 for the first year. After that $99 annually ($8.25 per month).

Transaction Fees
• Balance Transfers

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
Authorized User Card Fee: If you request a card for an authorized user, we charge an Authorized User Card Fee of $19 annually. This fee will reduce
the amount of your available credit.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
3

transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. There is no grace period and you cannot avoid paying interest on Purchases, Balance Transfers or Cash
Advances.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.
4

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
•
•
•
•

include your name, mailing address, and the last four digits of your Account number;
specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.

Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
5

permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.

6

The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).

7

How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
8

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of Net Eligible Purchases (as
defined below) made with your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time the credit is to be posted, you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept Visa/Mastercard credit cards are assigned a merchant code, which is determined by the merchant or
its processor in accordance with Visa/ Mastercard procedures based on the kinds of products and services they primarily sell. We group similar
merchant codes into Eligible Purchase categories for purposes of making cash back rewards offers to you. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the reward categories, the merchant may not have or use an eligible Code.
Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location may submit
Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the same
merchant at a different location may result in no reward.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• grocery (grocery Purchases do not include Purchases at superstores, at stores that sell groceries and other products like drugstores and
convenience stores; or at smaller stores like bakeries, candy, nut or confection stores),
• mobile phone service, and
• internet, cable and satellite TV service.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.

10

Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D081

CARD AGREEMENT

D083

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

Paying Interest

You will be charged interest on Purchases, Balance Transfers and Cash Advances from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Fees
Annual Fee

$75 for the first year. After that $99 annually ($8.25 per month).

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
Authorized User Card Fee: If you request a card for an authorized user, we charge an Authorized User Card Fee of $19 annually. This fee will reduce
the amount of your available credit.

1

*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
2

we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.

3

Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. There is no grace period and you cannot avoid paying interest on Purchases, Balance Transfers or Cash
Advances.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
4

late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.
5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
7

procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
8

•
•
•

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This document (“Supplement”) describes the terms and conditions of the Credit One Bank Cash Back Rewards Program (“Program”) and supplements
the Card Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to
participate in the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this
Supplement. In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this
Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 2% of Net Eligible Purchases (as
defined below) made at the NASCAR.com Superstore (store.NASCAR.com) with your Account and 1% of all other Net Eligible Purchases made with
your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges. We will post a statement
credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your Account from the 27th of the
previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the time the credit is to be posted,
you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept Visa/Mastercard credit cards are assigned a merchant code, which is determined by the merchant or
its processor in accordance with Visa/ Mastercard procedures based on the kinds of products and services they primarily sell. We group similar
merchant codes into Eligible Purchase categories for purposes of making cash back rewards offers to you. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible Code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location
may submit Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the
same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• automotive parts and services.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
Bank cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.

10

Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D083

CARD AGREEMENT

D098

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

24.40%

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$75 for the first year. After that $75 annually ($6.25 per month).

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR corresponds to a monthly periodic rate of 2.03333%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

Military Lending Act Protections
Covered Borrower: A Covered Borrower is a consumer who is entitled to the Limitations on Terms of Consumer Credit Extended to Service
Members and Dependents pursuant to a determination made in accordance with 32 C.F.R. 232.5(b).
Compliance with the Military Lending Act: This Agreement shall be interpreted to comply with the Military Lending Act, including its restrictions on
permissible loan terms and limitations on interest and fees. As a Covered Borrower: (a) the arbitration provision shall not apply to you, (b) the Duplicate
Statement Fee, the Sales Slip Request Fee, and the Replacement Card Fee shall not apply to you, and (c) any other provision of this Agreement that
is inconsistent with the Military Lending Act shall not apply to you.

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
2

Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
3

Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

4

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
5

•
•

provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.

Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
6

predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
7

If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.

8

Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
9

To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of Net Eligible Purchases (as
defined below) made with your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time the credit is to be posted, you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept Visa/Mastercard credit cards are assigned a merchant code, which is determined by the merchant or
its processor in accordance with Visa/ Mastercard procedures based on the kinds of products and services they primarily sell. We group similar
merchant codes into Eligible Purchase categories for purposes of making cash back rewards offers to you. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the reward categories, the merchant may not have or use an eligible Code.
Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location may submit
Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the same
merchant at a different location may result in no reward.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• grocery (grocery Purchases do not include Purchases at superstores, at stores that sell groceries and other products like drugstores and
convenience stores; or at smaller stores like bakeries, candy, nut or confection stores),
• mobile phone service, and
• internet, cable and satellite TV service.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
10

Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D098

CARD AGREEMENT

D099

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

24.40%

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$39

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR corresponds to a monthly periodic rate of 2.03333%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

Military Lending Act Protections
Covered Borrower: A Covered Borrower is a consumer who is entitled to the Limitations on Terms of Consumer Credit Extended to Service
Members and Dependents pursuant to a determination made in accordance with 32 C.F.R. 232.5(b).
Compliance with the Military Lending Act: This Agreement shall be interpreted to comply with the Military Lending Act, including its restrictions on
permissible loan terms and limitations on interest and fees. As a Covered Borrower: (a) the arbitration provision shall not apply to you, (b) the Duplicate
Statement Fee, the Sales Slip Request Fee, and the Replacement Card Fee shall not apply to you, and (c) any other provision of this Agreement that
is inconsistent with the Military Lending Act shall not apply to you.

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
2

Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
3

Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

4

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
5

•
•

provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.

Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
6

predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
7

If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.

8

Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
9

To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of Net Eligible Purchases (as
defined below) made with your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time the credit is to be posted, you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept Visa/Mastercard credit cards are assigned a merchant code, which is determined by the merchant or
its processor in accordance with Visa/ Mastercard procedures based on the kinds of products and services they primarily sell. We group similar
merchant codes into Eligible Purchase categories for purposes of making cash back rewards offers to you. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the reward categories, the merchant may not have or use an eligible Code.
Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location may submit
Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the same
merchant at a different location may result in no reward.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• grocery (grocery Purchases do not include Purchases at superstores, at stores that sell groceries and other products like drugstores and
convenience stores; or at smaller stores like bakeries, candy, nut or confection stores),
• mobile phone service, and
• internet, cable and satellite TV service.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
10

Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D099

CARD AGREEMENT

D217

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$39

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
2

you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
3

For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
4

Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
5

partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
7

administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
8

In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of Net Eligible Purchases (as
defined below) made with your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time the credit is to be posted, you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept Visa/Mastercard credit cards are assigned a merchant code, which is determined by the merchant or
its processor in accordance with Visa/ Mastercard procedures based on the kinds of products and services they primarily sell. We group similar
merchant codes into Eligible Purchase categories for purposes of making cash back rewards offers to you. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the reward categories, the merchant may not have or use an eligible Code.
Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location may submit
Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the same
merchant at a different location may result in no reward.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• grocery (grocery Purchases do not include Purchases at superstores, at stores that sell groceries and other products like drugstores and
convenience stores; or at smaller stores like bakeries, candy, nut or confection stores),
• mobile phone service, and
• internet, cable and satellite TV service.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
10

Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
Back to Top

11

06/21

D217

CARD AGREEMENT

D219

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$95

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
3

add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
4

late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.
5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
7

procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
8

•
•
•

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Bank Cash Back Rewards Program (“Program”) and supplements the Card
Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in
the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement.
In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit for purchases using your Account minus
returns, refunds, disputed charges and fraudulent transactions (“Net Eligible Purchases”), as follows:
•

5% cash back rewards on eligible gas, grocery, mobile phone service, and internet, cable and satellite TV service purchases for the first
$5,000 per calendar year in eligible gas, grocery, mobile phone service, and internet, cable and satellite TV service purchases, and then
1% thereafter.
❖ Certain Non-Eligible Purchases. You will only earn 1% cash back rewards, not 5%, for:
➢ Any purchase at a warehouse club (including but not limited to Sam’s Club and Costco);
➢ Groceries purchased at stores that sell groceries and other products like drugstores and convenience stores or at smaller
stores like bakeries, candy, nut or confection stores;
➢ Purchases for oil or propane or at home heating companies; and
➢ Purchases made with PayPal or at a discount supercenter (including but not limited to Wal-Mart and Target).

•

1% cash back rewards on all other purchases, including, the non-eligible purchases listed above.

You do not earn cash back rewards on Cash Advances, Balance Transfers, unauthorized charges, items returned for credit, interest, fees, and other
charges. We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with
your Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at
the time any credit is to be posted, you WILL NOT receive the applicable credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’ procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, purchases with that merchant won’t qualify for cash back rewards on purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible merchant code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one
location may submit purchases using different codes, including codes that are not eligible under this Program. This means that purchases
from the same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One Bank
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of eligible and non-eligible purchase at any time without notice. We will give you prior notice to the extent required by law. Any revisions may affect
your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
10

Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D219

CARD AGREEMENT

D223

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$0

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.

1

*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
2

we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.

3

Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
4

Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
5

Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
6

this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
7

Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

8

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
9

While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This document (“Supplement”) describes the terms and conditions of the Credit One Bank Cash Back Rewards Program (“Program”) and supplements
the Card Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to
participate in the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this
Supplement. In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this
Supplement controls.
Earning Cash Back Rewards:
You earn cash back rewards in the form of an automatic statement credit equal to 2% of Net Eligible Purchases (as defined below) made with your
Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges. We will post a statement credit
to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your Account from the 27th of the previous
month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the time the credit is to be posted, you
WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’s procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible merchant code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one
location may submit purchases using different codes, including codes that are not eligible under this Program. This means that Purchases
from the same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• grocery (grocery Purchases do not include Purchases at superstores, at stores that sell groceries and other products like drugstores and
convenience stores; or at smaller stores like bakeries, candy, nut or confection stores),
• mobile phone service, and
• internet, cable and satellite TV service.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
Bank cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
10

Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D223

CARD AGREEMENT

D224

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$39

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
3

add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
4

late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.
5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
7

procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
8

•
•
•

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This document (“Supplement”) describes the terms and conditions of the Credit One Bank Cash Back Rewards Program (“Program”) and supplements
the Card Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to
participate in the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this
Supplement. In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this
Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 2% of Net Eligible Purchases (as
defined below) made at the NASCAR.com Superstore (store.NASCAR.com) with your Account and 1% of all other Net Eligible Purchases made with
your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges. We will post a statement
credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your Account from the 27th of the
previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the time the credit is to be posted,
you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept Visa/Mastercard credit cards are assigned a merchant code, which is determined by the merchant or
its processor in accordance with Visa/ Mastercard procedures based on the kinds of products and services they primarily sell. We group similar
merchant codes into Eligible Purchase categories for purposes of making cash back rewards offers to you. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible Code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location
may submit Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the
same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• automotive parts and services.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
Bank cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.

10

Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D224

CARD AGREEMENT

D232

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$39

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
3

add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
4

late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.
5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.

6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
7

procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
8

•
•
•

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of Net Eligible Purchases (as
defined below) made with your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time the credit is to be posted, you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept Visa/Mastercard credit cards are assigned a merchant code, which is determined by the merchant or
its processor in accordance with Visa/ Mastercard procedures based on the kinds of products and services they primarily sell. We group similar
merchant codes into Eligible Purchase categories for purposes of making cash back rewards offers to you. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the reward categories, the merchant may not have or use an eligible Code.
Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location may submit
Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the same
merchant at a different location may result in no reward.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• grocery (grocery Purchases do not include Purchases at superstores, at stores that sell groceries and other products like drugstores and
convenience stores; or at smaller stores like bakeries, candy, nut or confection stores),
• mobile phone service, and
• internet, cable and satellite TV service.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
10

Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D232

CARD AGREEMENT

D233

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

Paying Interest

You will be charged interest on Purchases, Balance Transfers and Cash Advances from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Fees
Annual Fee

$75 for the first year. After that $99 annually ($8.25 per month).

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
Authorized User Card Fee: If you request a card for an authorized user, we charge an Authorized User Card Fee of $19 annually. This fee will reduce
the amount of your available credit.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
3

transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. There is no grace period and you cannot avoid paying interest on Purchases, Balance Transfers or Cash
Advances.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.
4

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
5

Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
6

This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
7

decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
8

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of Net Eligible Purchases (as
defined below) made with your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time the credit is to be posted, you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept Visa/Mastercard credit cards are assigned a merchant code, which is determined by the merchant or
its processor in accordance with Visa/ Mastercard procedures based on the kinds of products and services they primarily sell. We group similar
merchant codes into Eligible Purchase categories for purposes of making cash back rewards offers to you. Please note:
9

•

•

•

We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
Although a merchant or the items that it sells may appear to fit the reward categories, the merchant may not have or use an eligible Code.
Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location may submit
Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the same
merchant at a different location may result in no reward.
Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.

Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• grocery (grocery Purchases do not include Purchases at superstores, at stores that sell groceries and other products like drugstores and
convenience stores; or at smaller stores like bakeries, candy, nut or confection stores),
• mobile phone service, and
• internet, cable and satellite TV service.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.

Back to Top

10

06/21

D233

CARD AGREEMENT

D241

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$0

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
2

you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
3

For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
4

Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
5

partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.

6

Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
7

Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
8

If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of all Net Purchases made with
your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges. We will post a statement
credit to your Account within seven days after the end of the month based on the Net Purchases made with your Account from the 27th of the previous
month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the time the credit is to be posted, you
WILL NOT receive the credit. Cash back rewards have no cash value.
Net Purchases: Net Purchases are Purchases minus any returns, disputed charges, unauthorized charges, illegal or fraudulent charges or other
credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One cash
back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time. We will give you prior notice to the extent required by law.
Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
10
Back to Top

06/21

D241

CARD AGREEMENT

D242

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

24.40%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$95

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 21.15%. This
corresponds to a monthly periodic rate of 2.03333%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
2

you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
for only personal, family, household, or charitable purposes, and if your Account is used for any other purpose you are still responsible for such use.
You may not use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
3

For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase. American
Express charges a foreign currency conversion fee of 1% of the amount of the transaction in U.S. dollars. This fee is included as part of the Foreign
Transaction Fee listed in the Pricing Summary.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount.
(2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the balance will be rounded to zero and you will not
receive a refund of this amount.

4

Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
5

Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
6

Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.

7

Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, American Express
will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by American Express from the range of rates available
in wholesale currency markets for the applicable central processing date, which rate may vary from the rate American Express itself receives, or the
government-mandated rate in effect for the applicable central processing date. The currency conversion rate used on the processing date may differ
from the rate that would have been used on the purchase date or on the date the transaction is posted to your Account. You agree to pay the converted
amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
8

In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Bank Cash Back Rewards Program (“Program”) and supplements the Card
Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in
the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement.
In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit for purchases using your Account minus
returns, refunds, disputed charges and fraudulent transactions (“Net Eligible Purchases”), as follows:
•

5% cash back rewards on eligible gas, grocery, mobile phone service, and internet, cable and satellite TV service purchases for the first
$5,000 per calendar year in eligible gas, grocery, mobile phone service, and internet, cable and satellite TV service purchases, and then
1% thereafter.
❖ Certain Non-Eligible Purchases. You will only earn 1% cash back rewards, not 5%, for:
➢ Any purchase at a warehouse club (including but not limited to Sam’s Club and Costco);
➢ Groceries purchased at stores that sell groceries and other products like drugstores and convenience stores or at smaller
stores like bakeries, candy, nut or confection stores;
➢ Purchases for oil or propane or at home heating companies; and
➢ Purchases made with PayPal or at a discount supercenter (including but not limited to Wal-Mart and Target).

•

1% cash back rewards on all other purchases, including, the non-eligible purchases listed above.

You do not earn cash back rewards on Cash Advances, Balance Transfers, unauthorized charges, items returned for credit, interest, fees, and other
charges. We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with
your Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at
the time any credit is to be posted, you WILL NOT receive the applicable credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’ procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, purchases with that merchant won’t qualify for cash back rewards on purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible merchant code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one
location may submit purchases using different codes, including codes that are not eligible under this Program. This means that purchases
from the same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One Bank
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of eligible and non-eligible purchase at any time without notice. We will give you prior notice to the extent required by law. Any revisions may affect
your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
10

Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

American Express is a federally registered service mark of American Express. This credit card program is issued and administered by Credit One
Bank, N.A., pursuant to a license from American Express.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D242

CARD AGREEMENT

D243

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$95

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
2

you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
3

For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
4

Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
5

partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
7

administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
8

•
•
•

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Bank Cash Back Rewards Program (“Program”) and supplements the Card
Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in
the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement.
In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit for purchases using your Account minus
returns, refunds, disputed charges and fraudulent transactions (“Net Eligible Purchases”), as follows:
•

5% cash back rewards on eligible gas, grocery, mobile phone service, and internet, cable and satellite TV service purchases for the first
$5,000 per calendar year in eligible gas, grocery, mobile phone service, and internet, cable and satellite TV service purchases, and then
1% thereafter.
❖ Certain Non-Eligible Purchases. You will only earn 1% cash back rewards, not 5%, for:
➢ Any purchase at a warehouse club (including but not limited to Sam’s Club and Costco);
➢ Groceries purchased at stores that sell groceries and other products like drugstores and convenience stores or at smaller
stores like bakeries, candy, nut or confection stores;
➢ Purchases for oil or propane or at home heating companies; and
➢ Purchases made with PayPal or at a discount supercenter (including but not limited to Wal-Mart and Target).

•

1% cash back rewards on all other purchases, including, the non-eligible purchases listed above.

You do not earn cash back rewards on Cash Advances, Balance Transfers, unauthorized charges, items returned for credit, interest, fees, and other
charges. We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with
your Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at
the time any credit is to be posted, you WILL NOT receive the applicable credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’ procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, purchases with that merchant won’t qualify for cash back rewards on purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible merchant code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one
location may submit purchases using different codes, including codes that are not eligible under this Program. This means that purchases
from the same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One Bank
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of eligible and non-eligible purchase at any time without notice. We will give you prior notice to the extent required by law. Any revisions may affect
your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
10

Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D243

CARD AGREEMENT

D244

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$75 for the first year. After that $99 annually ($8.25 per month).

Transaction Fees
• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
Authorized User Card Fee: If you request a card for an authorized user, we charge an Authorized User Card Fee of $19 annually. This fee will reduce
the amount of your available credit.
1

*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
2

we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
for only personal, family, household, or charitable purposes, and if your Account is used for any other purpose you are still responsible for such use.
You may not use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.

3

Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase. American
Express charges a foreign currency conversion fee of 1% of the amount of the transaction in U.S. dollars. This fee is included as part of the Foreign
Transaction Fee listed in the Pricing Summary.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount.
4

(2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the balance will be rounded to zero and you will not
receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
5

Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
6

outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
7

Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, American Express
will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by American Express from the range of rates available
in wholesale currency markets for the applicable central processing date, which rate may vary from the rate American Express itself receives, or the
government-mandated rate in effect for the applicable central processing date. The currency conversion rate used on the processing date may differ
from the rate that would have been used on the purchase date or on the date the transaction is posted to your Account. You agree to pay the converted
amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

8

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.

9

While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of all Net Purchases made with
your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges. We will post a statement
credit to your Account within seven days after the end of the month based on the Net Purchases made with your Account from the 27th of the previous
month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the time the credit is to be posted, you
WILL NOT receive the credit. Cash back rewards have no cash value.
Net Purchases: Net Purchases are Purchases minus any returns, disputed charges, unauthorized charges, illegal or fraudulent charges or other
credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One cash
back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time. We will give you prior notice to the extent required by law.
Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

American Express is a federally registered service mark of American Express. This credit card program is issued and administered by Credit One
Bank, N.A., pursuant to a license from American Express.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.

Back to Top

10

06/21

D244

CARD AGREEMENT

D245

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$0

Transaction Fees
• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
2

you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
for only personal, family, household, or charitable purposes, and if your Account is used for any other purpose you are still responsible for such use.
You may not use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
3

For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase. American
Express charges a foreign currency conversion fee of 1% of the amount of the transaction in U.S. dollars. This fee is included as part of the Foreign
Transaction Fee listed in the Pricing Summary.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount.
(2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the balance will be rounded to zero and you will not
receive a refund of this amount.

4

Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.

5

Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
6

they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
7

Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, American Express
will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by American Express from the range of rates available
in wholesale currency markets for the applicable central processing date, which rate may vary from the rate American Express itself receives, or the
government-mandated rate in effect for the applicable central processing date. The currency conversion rate used on the processing date may differ
from the rate that would have been used on the purchase date or on the date the transaction is posted to your Account. You agree to pay the converted
amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

8

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.

9

While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of all Net Purchases made with
your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges. We will post a statement
credit to your Account within seven days after the end of the month based on the Net Purchases made with your Account from the 27th of the previous
month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the time the credit is to be posted, you
WILL NOT receive the credit. Cash back rewards have no cash value.
Net Purchases: Net Purchases are Purchases minus any returns, disputed charges, unauthorized charges, illegal or fraudulent charges or other
credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One cash
back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time. We will give you prior notice to the extent required by law.
Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

American Express is a federally registered service mark of American Express. This credit card program is issued and administered by Credit One
Bank, N.A., pursuant to a license from American Express.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.

Back to Top

10

06/21

D245

CARD AGREEMENT

D246

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

23.99%

APR for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$39

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
2

you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
3

For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
4

Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
5

partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
7

administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
8

In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of Net Eligible Purchases (as
defined below) made with your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time the credit is to be posted, you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept Visa/Mastercard credit cards are assigned a merchant code, which is determined by the merchant or
its processor in accordance with Visa/ Mastercard procedures based on the kinds of products and services they primarily sell. We group similar
merchant codes into Eligible Purchase categories for purposes of making cash back rewards offers to you. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the reward categories, the merchant may not have or use an eligible Code.
Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location may submit
Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the same
merchant at a different location may result in no reward.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• grocery (grocery Purchases do not include Purchases at superstores, at stores that sell groceries and other products like drugstores and
convenience stores; or at smaller stores like bakeries, candy, nut or confection stores),
• mobile phone service, and
• internet, cable and satellite TV service.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
10

Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D246

CARD AGREEMENT

D247

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

24.40%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

24.40%

APR for Cash Advances

24.40%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$39

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 21.15%. This
corresponds to a monthly periodic rate of 2.03333%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
for only personal, family, household, or charitable purposes, and if your Account is used for any other purpose you are still responsible for such use.
You may not use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
3

transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase. American
Express charges a foreign currency conversion fee of 1% of the amount of the transaction in U.S. dollars. This fee is included as part of the Foreign
Transaction Fee listed in the Pricing Summary.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount.
(2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the balance will be rounded to zero and you will not
receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
4

late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.
5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.

6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
7

procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, American Express
will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by American Express from the range of rates available
in wholesale currency markets for the applicable central processing date, which rate may vary from the rate American Express itself receives, or the
government-mandated rate in effect for the applicable central processing date. The currency conversion rate used on the processing date may differ
from the rate that would have been used on the purchase date or on the date the transaction is posted to your Account. You agree to pay the converted
amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
8

•

Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.

9

Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of all Net Purchases made with
your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges. We will post a statement
credit to your Account within seven days after the end of the month based on the Net Purchases made with your Account from the 27th of the previous
month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the time the credit is to be posted, you
WILL NOT receive the credit. Cash back rewards have no cash value.
Net Purchases: Net Purchases are Purchases minus any returns, disputed charges, unauthorized charges, illegal or fraudulent charges or other
credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One cash
back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time. We will give you prior notice to the extent required by law.
Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

American Express is a federally registered service mark of American Express. This credit card program is issued and administered by Credit One
Bank, N.A., pursuant to a license from American Express.
© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
Back to Top

10

06/21

D247

CARD AGREEMENT

D248

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

24.40%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

24.40%

APR for Cash Advances

24.40%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$39

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 21.15%. This
corresponds to a monthly periodic rate of 2.03333%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
3

transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
4

Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
6

UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.

7

Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
8

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Bank Cash Back Rewards Program (“Program”) and supplements the Card
Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in
the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement.
In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of Net Eligible Purchases (as
defined below) made with your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time the credit is to be posted, you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept Visa/Mastercard credit cards are assigned a merchant code, which is determined by the merchant or
its processor in accordance with Visa/ Mastercard procedures based on the kinds of products and services they primarily sell. We group similar
merchant codes into Eligible Purchase categories for purposes of making cash back rewards offers to you. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible Code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location
may submit Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the
same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• grocery (grocery Purchases do not include Purchases at superstores, at stores that sell groceries and other products like drugstores and
convenience stores; or at smaller stores like bakeries, candy, nut or confection stores),
• dining (dining Purchases do not include Purchases at stores like bakeries, candy, nut of confections stores),
• mobile phone service, and
• internet, cable and satellite TV service.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
Bank cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
10

Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank® and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D248

CARD AGREEMENT

D249

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$95

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
3

to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.

4

Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.

6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
7

procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
8

•
•

Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Bank Cash Back Rewards Program (“Program”) and supplements the Card
Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in
the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement.
In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit for purchases using your Account minus
returns, refunds, disputed charges and fraudulent transactions (“Net Eligible Purchases”), as follows:
•

5% cash back rewards on eligible gas, grocery, mobile phone service, and internet, cable and satellite TV service purchases for the first
$5,000 per calendar year in eligible gas, grocery, mobile phone service, and internet, cable and satellite TV service purchases, and then
1% thereafter.
❖ Certain Non-Eligible Purchases. You will only earn 1% cash back rewards, not 5%, for:
➢ Any purchase at a warehouse club (including but not limited to Sam’s Club and Costco);
➢ Groceries purchased at stores that sell groceries and other products like drugstores and convenience stores or at smaller
stores like bakeries, candy, nut or confection stores;
➢ Purchases for oil or propane or at home heating companies; and
➢ Purchases made with PayPal or at a discount supercenter (including but not limited to Wal-Mart and Target).

•

1% cash back rewards on all other purchases, including, the non-eligible purchases listed above.

You do not earn cash back rewards on Cash Advances, Balance Transfers, unauthorized charges, items returned for credit, interest, fees, and other
charges. We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with
your Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at
the time any credit is to be posted, you WILL NOT receive the applicable credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’ procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, purchases with that merchant won’t qualify for cash back rewards on purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible merchant code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one
location may submit purchases using different codes, including codes that are not eligible under this Program. This means that purchases
from the same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One Bank
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of eligible and non-eligible purchase at any time without notice. We will give you prior notice to the extent required by law. Any revisions may affect
your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.

10

Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D249

CARD AGREEMENT

D250

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

23.99%

APR for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$0

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
3

transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
4

Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
6

UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.

7

Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
8

•
•

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Bank Cash Back Rewards Program (“Program”) and supplements the Card
Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in
the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement.
In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 2% of Net Eligible Purchases (as
defined below) made with your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time the credit is to be posted, you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’s procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible Code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location
may submit Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the
same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• grocery (grocery Purchases do not include Purchases at superstores, at stores that sell groceries and other products like drugstores and
convenience stores; or at smaller stores like bakeries, candy, nut or confection stores),
• mobile phone service, and
• internet, cable and satellite TV service.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required
to pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases
made while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit
One Bank cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of
a statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making
a claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused
10

by any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be
your responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of
your Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any
cash back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted,
respectively, by federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D250

CARD AGREEMENT

D251

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

24.40%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

24.40%

APR for Cash Advances

24.40%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$0

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 21.15%. This
corresponds to a monthly periodic rate of 2.03333%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
for only personal, family, household, or charitable purposes, and if your Account is used for any other purpose you are still responsible for such use.
You may not use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
3

add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase. American
Express charges a foreign currency conversion fee of 1% of the amount of the transaction in U.S. dollars. This fee is included as part of the Foreign
Transaction Fee listed in the Pricing Summary.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount.
(2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the balance will be rounded to zero and you will not
receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
4

Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
5

partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
7

procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, American Express
will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by American Express from the range of rates available
in wholesale currency markets for the applicable central processing date, which rate may vary from the rate American Express itself receives, or the
government-mandated rate in effect for the applicable central processing date. The currency conversion rate used on the processing date may differ
from the rate that would have been used on the purchase date or on the date the transaction is posted to your Account. You agree to pay the converted
amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
8

•
•

Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
9

Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of all Net Purchases made with
your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges. We will post a statement
credit to your Account within seven days after the end of the month based on the Net Purchases made with your Account from the 27th of the previous
month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the time the credit is to be posted, you
WILL NOT receive the credit. Cash back rewards have no cash value.
Net Purchases: Net Purchases are Purchases minus any returns, disputed charges, unauthorized charges, illegal or fraudulent charges or other
credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One cash
back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time. We will give you prior notice to the extent required by law.
Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

American Express is a federally registered service mark of American Express. This credit card program is issued and administered by Credit One
Bank, N.A., pursuant to a license from American Express.
© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
10
Back to Top

06/21

D251

CARD AGREEMENT

D252

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$39

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
for only personal, family, household, or charitable purposes, and if your Account is used for any other purpose you are still responsible for such use.
You may not use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
3

transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase. American
Express charges a foreign currency conversion fee of 1% of the amount of the transaction in U.S. dollars. This fee is included as part of the Foreign
Transaction Fee listed in the Pricing Summary.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount.
(2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the balance will be rounded to zero and you will not
receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.

4

Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.
5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.

6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
7

Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, American Express
will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by American Express from the range of rates available
in wholesale currency markets for the applicable central processing date, which rate may vary from the rate American Express itself receives, or the
government-mandated rate in effect for the applicable central processing date. The currency conversion rate used on the processing date may differ
from the rate that would have been used on the purchase date or on the date the transaction is posted to your Account. You agree to pay the converted
amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

8

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
9

While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of all Net Purchases made with
your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges. We will post a statement
credit to your Account within seven days after the end of the month based on the Net Purchases made with your Account from the 27th of the previous
month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the time the credit is to be posted, you
WILL NOT receive the credit. Cash back rewards have no cash value.
Net Purchases: Net Purchases are Purchases minus any returns, disputed charges, unauthorized charges, illegal or fraudulent charges or other
credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One cash
back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time. We will give you prior notice to the extent required by law.
Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

American Express is a federally registered service mark of American Express. This credit card program is issued and administered by Credit One
Bank, N.A., pursuant to a license from American Express.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
10
Back to Top

06/21

D252

CARD AGREEMENT

D255

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$95

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
for only personal, family, household, or charitable purposes, and if your Account is used for any other purpose you are still responsible for such use.
You may not use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
3

transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase. American
Express charges a foreign currency conversion fee of 1% of the amount of the transaction in U.S. dollars. This fee is included as part of the Foreign
Transaction Fee listed in the Pricing Summary.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount.
(2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the balance will be rounded to zero and you will not
receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.

4

Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.
5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
6

UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.

7

Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, American Express
will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by American Express from the range of rates available
in wholesale currency markets for the applicable central processing date, which rate may vary from the rate American Express itself receives, or the
government-mandated rate in effect for the applicable central processing date. The currency conversion rate used on the processing date may differ
from the rate that would have been used on the purchase date or on the date the transaction is posted to your Account. You agree to pay the converted
amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
8

•

At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Bank Cash Back Rewards Program (“Program”) and supplements the Card
Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in
the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement.
In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit for purchases using your Account minus
returns, refunds, disputed charges and fraudulent transactions (“Net Eligible Purchases”), as follows:
•

5% cash back rewards on eligible gas, grocery, mobile phone service, and internet, cable and satellite TV service purchases for the first
$5,000 per calendar year in eligible gas, grocery, mobile phone service, and internet, cable and satellite TV service purchases, and then
1% thereafter.
❖ Certain Non-Eligible Purchases. You will only earn 1% cash back rewards, not 5%, for:
➢ Any purchase at a warehouse club (including but not limited to Sam’s Club and Costco);
➢ Groceries purchased at stores that sell groceries and other products like drugstores and convenience stores or at smaller
stores like bakeries, candy, nut or confection stores;
➢ Purchases for oil or propane or at home heating companies; and
➢ Purchases made with PayPal or at a discount supercenter (including but not limited to Wal-Mart and Target).

•

1% cash back rewards on all other purchases, including, the non-eligible purchases listed above.

You do not earn cash back rewards on Cash Advances, Balance Transfers, unauthorized charges, items returned for credit, interest, fees, and other
charges. We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with
your Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at
the time any credit is to be posted, you WILL NOT receive the applicable credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’ procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, purchases with that merchant won’t qualify for cash back rewards on purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible merchant code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one
location may submit purchases using different codes, including codes that are not eligible under this Program. This means that purchases
from the same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One Bank
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of eligible and non-eligible purchase at any time without notice. We will give you prior notice to the extent required by law. Any revisions may affect
your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.

10

Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

American Express is a federally registered service mark of American Express. This credit card program is issued and administered by Credit One
Bank, N.A., pursuant to a license from American Express.
© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D255

CARD AGREEMENT

D261

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

24.40%

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$39

Transaction Fees
• Balance Transfer

Either $7 or 4% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR corresponds to a monthly periodic rate of 2.03333%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

Military Lending Act Protections
Covered Borrower: A Covered Borrower is a consumer who is entitled to the Limitations on Terms of Consumer Credit Extended to Service
Members and Dependents pursuant to a determination made in accordance with 32 C.F.R. 232.5(b).
Compliance with the Military Lending Act: This Agreement shall be interpreted to comply with the Military Lending Act, including its restrictions on
permissible loan terms and limitations on interest and fees. As a Covered Borrower: (a) the arbitration provision shall not apply to you, (b) the Duplicate
Statement Fee, the Sales Slip Request Fee, and the Replacement Card Fee shall not apply to you, and (c) any other provision of this Agreement that
is inconsistent with the Military Lending Act shall not apply to you.

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
2

Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
3

Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
4

Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
5

Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
6

your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.

7

Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
8

Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
9

2.
3.

You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of Net Eligible Purchases (as
defined below) made with your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time the credit is to be posted, you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept Visa/Mastercard credit cards are assigned a merchant code, which is determined by the merchant or
its processor in accordance with Visa/ Mastercard procedures based on the kinds of products and services they primarily sell. We group similar
merchant codes into Eligible Purchase categories for purposes of making cash back rewards offers to you. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the reward categories, the merchant may not have or use an eligible Code.
Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location may submit
Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the same
merchant at a different location may result in no reward.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• grocery (grocery Purchases do not include Purchases at superstores, at stores that sell groceries and other products like drugstores and
convenience stores; or at smaller stores like bakeries, candy, nut or confection stores),
• mobile phone service, and
• internet, cable and satellite TV service.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
10

while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.

Back to Top

11

06/21

D261

CARD AGREEMENT

D262

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

17.99%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

17.99%

APR for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$0

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase and Balance Transfer APR equals the Prime Rate plus a margin of 14.74%. This corresponds to a
monthly periodic rate of 1.49917%. The Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This corresponds to a monthly periodic
rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
3

transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
4

Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
6

UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.

7

Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
8

•
•

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Bank Cash Back Rewards Program (“Program”) and supplements the Card
Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in
the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement.
In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 2% of Net Eligible Purchases (as
defined below) made with your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
9

Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time the credit is to be posted, you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’s procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible Code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location
may submit Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the
same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• grocery (grocery Purchases do not include Purchases at superstores, at stores that sell groceries and other products like drugstores and
convenience stores; or at smaller stores like bakeries, candy, nut or confection stores),
• mobile phone service, and
• internet, cable and satellite TV service.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required
to pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases
made while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit
One Bank cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of
a statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making
a claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused
by any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be
your responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of
your Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any
cash back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted,
respectively, by federal, state or local law.

© 2020 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
10
Back to Top

C50-01525 6/21

D262

CARD AGREEMENT

D263

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

24.40%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$95

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 21.15%. This
corresponds to a monthly periodic rate of 2.03333%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
3

transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
4

Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.

6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
7

procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
8

•
•
•

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Bank Cash Back Rewards Program (“Program”) and supplements the Card
Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in
the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement.
In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit for purchases using your Account minus
returns, refunds, disputed charges and fraudulent transactions (“Net Eligible Purchases”), as follows:
•

5% cash back rewards on eligible gas, grocery, mobile phone service, and internet, cable and satellite TV service purchases for the first
$5,000 per calendar year in eligible gas, grocery, mobile phone service, and internet, cable and satellite TV service purchases, and then
1% thereafter.
❖ Certain Non-Eligible Purchases. You will only earn 1% cash back rewards, not 5%, for:
➢ Any purchase at a warehouse club (including but not limited to Sam’s Club and Costco);
➢ Groceries purchased at stores that sell groceries and other products like drugstores and convenience stores or at smaller
stores like bakeries, candy, nut or confection stores;
➢ Purchases for oil or propane or at home heating companies; and
➢ Purchases made with PayPal or at a discount supercenter (including but not limited to Wal-Mart and Target).

•

1% cash back rewards on all other purchases, including, the non-eligible purchases listed above.

You do not earn cash back rewards on Cash Advances, Balance Transfers, unauthorized charges, items returned for credit, interest, fees, and other
charges. We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with
your Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at
the time any credit is to be posted, you WILL NOT receive the applicable credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’ procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, purchases with that merchant won’t qualify for cash back rewards on purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible merchant code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one
location may submit purchases using different codes, including codes that are not eligible under this Program. This means that purchases
from the same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One Bank
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of eligible and non-eligible purchase at any time without notice. We will give you prior notice to the extent required by law. Any revisions may affect
your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
10

Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

06/21

D263

CARD AGREEMENT

D264

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

24.40%

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$75 for the first year. After that $75 annually ($6.25 per month).

Transaction Fees
• Balance Transfer

Either $7 or 4% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR corresponds to a monthly periodic rate of 2.03333%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

Military Lending Act Protections
Covered Borrower: A Covered Borrower is a consumer who is entitled to the Limitations on Terms of Consumer Credit Extended to Service
Members and Dependents pursuant to a determination made in accordance with 32 C.F.R. 232.5(b).
Compliance with the Military Lending Act: This Agreement shall be interpreted to comply with the Military Lending Act, including its restrictions on
permissible loan terms and limitations on interest and fees. As a Covered Borrower: (a) the arbitration provision shall not apply to you, (b) the Duplicate
Statement Fee, the Sales Slip Request Fee, and the Replacement Card Fee shall not apply to you, and (c) any other provision of this Agreement that
is inconsistent with the Military Lending Act shall not apply to you.

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
2

Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
3

Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
4

Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
5

Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
6

your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.

7

Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
8

Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
9

2.
3.

You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of Net Eligible Purchases (as
defined below) made with your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time the credit is to be posted, you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept Visa/Mastercard credit cards are assigned a merchant code, which is determined by the merchant or
its processor in accordance with Visa/ Mastercard procedures based on the kinds of products and services they primarily sell. We group similar
merchant codes into Eligible Purchase categories for purposes of making cash back rewards offers to you. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the reward categories, the merchant may not have or use an eligible Code.
Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location may submit
Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the same
merchant at a different location may result in no reward.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• grocery (grocery Purchases do not include Purchases at superstores, at stores that sell groceries and other products like drugstores and
convenience stores; or at smaller stores like bakeries, candy, nut or confection stores),
• mobile phone service, and
• internet, cable and satellite TV service.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
10

while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

© 2020 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

C50-01700 6/21

D264

CARD AGREEMENT

D267

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

17.99%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

17.99%

APR for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$0

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase and Balance Transfer APR equals the Prime Rate plus a margin of 14.74%. This corresponds to a
monthly periodic rate of 1.49917%. The Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This corresponds to a monthly periodic
rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
3

transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
4

Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
6

UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.

7

Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
8

•
•

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Bank Cash Back Rewards Program (“Program”) and supplements the Card
Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in
the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement.
In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 2% of Net Eligible Purchases (as
defined below) made with your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time the credit is to be posted, you WILL NOT receive the credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’s procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, Purchases with that merchant won’t qualify for cash back rewards offers on Purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible Code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one location
may submit Purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the
same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Eligible Purchases: Eligible Purchases are Purchases from merchants in the following categories:
• gasoline,
• grocery (grocery Purchases do not include Purchases at superstores, at stores that sell groceries and other products like drugstores and
convenience stores; or at smaller stores like bakeries, candy, nut or confection stores),
• mobile phone service, and
• internet, cable and satellite TV service.
Purchases That Are Not Eligible: Purchases from the following types of merchants are not eligible for cash back rewards:
• oil, propane, home heating companies,
• PayPal,
• warehouse clubs (including but not limited to Sam’s Club and Costco),
• discount supercenters (including but not limited to Wal-Mart and Target).
Net Eligible Purchases: Net Eligible Purchases are Eligible Purchases minus any returns, disputed charges, unauthorized charges, illegal or
fraudulent charges or other credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required
to pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases
made while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit
One Bank cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of Eligible Purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of
a statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making
a claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused
10

by any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be
your responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of
your Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any
cash back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted,
respectively, by federal, state or local law.

© 2020 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

C50-01703 6/21

D267

CARD AGREEMENT

D269

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

Paying Interest

You will be charged interest on Purchases, Balance Transfers and Cash Advances from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Fees
Annual Fee

$95

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
Authorized User Card Fee: If you request a card for an authorized user, we charge an Authorized User Card Fee of $19 annually. This fee will reduce
the amount of your available credit.

1

*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
2

you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.

3

For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. There is no grace period and you cannot avoid paying interest on Purchases, Balance Transfers or Cash
Advances.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
4

Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
5

(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
6

The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).

7

How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
8

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Bank Cash Back Rewards Program (“Program”) and supplements the Card
Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in
the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement.
In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit for purchases using your Account minus
returns, refunds, disputed charges and fraudulent transactions (“Net Eligible Purchases”), as follows:

9

•

5% cash back rewards on eligible gas, grocery, mobile phone service, and internet, cable and satellite TV service purchases for the first
$5,000 per calendar year in eligible gas, grocery, mobile phone service, and internet, cable and satellite TV service purchases, and then
1% thereafter.
❖ Certain Non-Eligible Purchases. You will only earn 1% cash back rewards, not 5%, for:
➢ Any purchase at a warehouse club (including but not limited to Sam’s Club and Costco);
➢ Groceries purchased at stores that sell groceries and other products like drugstores and convenience stores or at smaller
stores like bakeries, candy, nut or confection stores;
➢ Purchases for oil or propane or at home heating companies; and
➢ Purchases made with PayPal or at a discount supercenter (including but not limited to Wal-Mart and Target).

•

1% cash back rewards on all other purchases, including, the non-eligible purchases listed above.

You do not earn cash back rewards on Cash Advances, Balance Transfers, unauthorized charges, items returned for credit, interest, fees, and other
charges. We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with
your Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at
the time any credit is to be posted, you WILL NOT receive the applicable credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’ procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, purchases with that merchant won’t qualify for cash back rewards on purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible merchant code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one
location may submit purchases using different codes, including codes that are not eligible under this Program. This means that purchases
from the same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One Bank
cash back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of eligible and non-eligible purchase at any time without notice. We will give you prior notice to the extent required by law. Any revisions may affect
your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

© 2020 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
10
Back to Top

C50-01705 6/21

D269

CARD AGREEMENT

D270

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

23.99%

APR for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$39

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
2

you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
3

For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
4

Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
5

partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
7

administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
8

In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This document (“Supplement”) describes the terms and conditions of the Credit One Bank Six Flags Rewards Program (“Program”) and supplements
the Card Agreement that governs your Six Flags credit card account with rewards issued by Credit One Bank, N.A. (the “Account”). By using the
Account, you agree to participate in the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision,
if applicable, and this Supplement. In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the
Program, this Supplement controls.
Earning Six Flags Rewards
You earn rewards points for every dollar you spend for purchases using your Account minus returns, refunds, disputed charges, and fraudulent
transactions (“Net Eligible Purchases”) as follows:
•

3 points on eligible Six Flags purchases (See Merchant Categories below)
o Eligible purchases include purchases made at Six Flags theme and water park locations, within the United States, including parking,
admission, dining, and merchandise; purchases made at Six Flags’ web sites; and stays at the Six Flags Great Escape Lodge.
Purchases of Six Flags theme and water park ride photos or videos do not qualify. Purchases made through third party services do not
qualify.
o Non-eligible purchases, where you earn 1 point, include purchases made at Six Flags properties outside the United States, purchases
of ride photos or videos, and Six Flags purchases made through third-party services.

•

2 points on eligible gasoline, grocery, and lodging purchases (See Merchant Categories below)
o Gasoline purchases
▪ Eligible purchases include gasoline purchases made at gas stations and automated fuel dispensers.
▪ Non-eligible purchases, where you earn 1 point, include purchases for oil, propane, and purchases made at home heating
companies or at warehouse clubs (including but not limited to Sam’s Club and Costco).
o Grocery purchases
▪ Eligible purchases include purchases made at grocery stores and supermarkets; butcher shops, fish/seafood markets, and meat
markets; and convenience stores.
▪ Non-eligible purchases, where you earn 1 point, include purchases at drug stores; discount supercenters (including but not limited
to Wal-Mart and Target); warehouse clubs (including but not limited to Sam’s Club and Costco; and small stores like bakeries,
candy, nut, or confection stores.
o Lodging purchases
▪ Eligible purchases include purchases made at hotels, motels, inns, bed and breakfasts, and resorts.
▪ Non-eligible purchases, where you earn 1 point, include campgrounds, cruise lines, timeshares and hostels.

•

1 point on all other purchases, including the non-eligible purchases listed above, except as noted below.
▪ Non-eligible purchases, where you earn no points, include travelers checks, foreign currency purchases, money orders, wire
transfers, and similar cash-like transactions.

We round the Net Eligible Purchase amount to the nearest whole dollar, and you must spend at least one dollar in Net Eligible Purchases with your
Account in order to earn points. For example, if you make an eligible purchase of $1.50, you are eligible to earn 2 points, if you make an eligible
purchase of $1.49, you are eligible to earn 1 point, and if your purchase amount is $0.99 or less, you are not eligible to earn any points.
You do not earn rewards points on Cash Advances, Balance Transfers, interest and account fees, unauthorized charges, items returned for credit and
other similar charges. Points are posted to your Account within seven days after an eligible transaction posts to your Account. If your Account is in
default, as defined in your Card Agreement, at the time the points are to be posted, you WILL NOT receive the points. Rewards points have no cash
value until such time as they are redeemed in accordance with the Program. Points may not be transferred to any other person, including through such
events as inheritance, bankruptcy, or divorce.
Point accumulation is not capped and you may have a negative points balance (because of returns and other post-transaction actions). If your Account
has a negative points balance, any newly earned points will be used to offset such negative points balance until such balance has been brought to
zero. As long as your Account is in good standing your points do not expire. Points are forfeited 30 days after your Account is closed by you or us. If
we find evidence of misuse, fraud, or the Account is in default as defined in your Card Agreement, you will not be able to redeem points. Points from
separate accounts cannot be combined. Authorized Users earn points on the Account, but only the primary Cardholder may redeem points.
Merchant Categories
Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in accordance with the
applicable credit card network’s procedures based on the kinds of products and services primarily sold by the merchant. We have no control over
merchant codes. Please note:
10

•

•

•

We make every effort to include all relevant merchant codes in our rewards point categories. However, even though a merchant or some of
the items that it sells may appear to fit within a rewards points category, the merchant may not have a merchant code in that category. When
this occurs, purchases with that merchant won’t qualify for rewards points in the category that they appear to fit, but will instead qualify for
the 1 point on all other purchases category.
Although a merchant or the items that it sells may appear to fit the rewards points categories, the merchant may or may not have or use an
eligible merchant code. Purchases made without an eligible code WILL NOT qualify for rewards points. A merchant with more than one
location may submit purchases using different codes, including codes that are not eligible under this Program. This means that purchases
from the same merchant at a different location may result in no rewards points.
Purchases submitted by you, an Authorized User, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a rewards points category if the technology is not set up to process
the purchase in that rewards points category.

Redeeming Rewards
Points may be redeemed for Six Flags products and services in the form of rewards vouchers. All point redemptions are subject to terms and conditions
in this Supplement and as set forth at www.creditonebank.com/SixFlagsRewardsRedemptionTerms. The number of points you need to redeem for Six
Flags products and services will be determined at redemption and may change without notice. The most up-to-date number of rewards points you
have available to redeem (which reflects any points adjustments, transfers, or redemptions) is available online or by calling Credit One Bank customer
service, and may differ from the available points shown on your last monthly billing statement.
Rewards vouchers are delivered digitally via email with a barcode that is to be scanned at participating Six Flags theme and water parks for the
fulfillment of the redemption. A valid email address is required to receive your redemption. It is your responsibility to provide and maintain a current
email address with us. You can update your email address in the “Settings” area of your online Account or by contacting Customer Service at the
number on the back of your credit card. Rewards vouchers are non-transferrable. Lost or stolen rewards vouchers cannot be replaced.
All redemptions for Six Flags products and services through the redemption site are final. Cancellations, returns, exchanges, or modifications are not
accepted or allowed through the redemption site.
Feedback. If you send or transmit any communications, comments, questions, suggestions, or related materials, whether by letter, email, telephone,
or otherwise (Feedback), suggesting or recommending changes to the Program or how rewards points are fulfilled, including, without limitation, new
features or functionality, you grant to us and any of our vendors a perpetual right to use the Feedback for our and their own respective internal business
purposes. Further, we, our service providers, vendors and any subcontractors disclaim any liability to you for any such use of Feedback for our or their
own respective internal business purposes.
Consumer Goods/Services Disclaimer. BY PARTICIPATING IN THE PROGRAM, YOU ACKNOWLEDGE AND AGREE THAT CREDIT ONE BANK,
FDR AND ITS VENDORS ARE ONLY PROVIDING THE PROGRAM TO EARN AND REDEEM POINTS AND NOT PROVIDING CONSUMER GOODS
OR SERVICES. CREDIT ONE BANK, FDR AND THEIR VENDORS ARE NOT INVOLVED IN WARRANTING ANY CONSUMER GOODS OR
SERVICES WHICH YOU MAY ACQUIRE UTILIZING THE PROGRAM AND REDEMPTION SERVICES. CREDIT ONE BANK, FDR AND THEIR
VENDORS DO NOT MAKE, AND AFFIRMATIVELY DISCLAIM, ANY AND ALL WARRANTIES, EXPRESS OR IMPLIED, WITH RESPECT TO SUCH
CONSUMER GOODS OR SERVICES, INCLUDING WITHOUT LIMITATION, ANY WARRANTY OF MERCHANTABILITY, SUITABILITY FOR A
PARTICULAR PURPOSE, OR AGAINST INFRINGEMENT. WARRANTIES FOR CONSUMER GOODS AND SERVICES ARE LIMITED TO THE
APPLICABLE THIRD-PARTY SUPPLIER’S WARRANTIES AND RETURN POLICIES. BY PARTICIPATING IN THE PROGRAM, YOU
ACKNOWLEDGE AND AGREE TO LOOK SOLELY TO THE APPLICABLE MERCHANT PROVIDING THE CONSUMER GOODS AND/OR
SERVICES REDEEMED OR PURCHASED BY YOU UTILIZING THE PROGRAM FOR ANY WARRANTY, REMEDY, OBLIGATION AND/OR
LIABILITY WITH RESPECT TO SUCH CONSUMER PRODUCTS AND/OR SERVICES. BY PARTICIPATING IN THE PROGRAM, YOU RELEASE
CREDIT ONE BANK, FDR AND THEIR VENDORS FROM ANY AND ALL LIABILITY WITH RESPECT TO SUCH CONSUMER GOODS AND
SERVICES.
Information Disclaimer. IN THE COURSE OF PROVIDING THE PROGRAM AND REDEMPTION SERVICE FOR CONSUMER GOODS AND/OR
SERVICES, CREDIT ONE BANK, FDR AND THEIR VENDORS MAY INTEGRATE WITH THIRD-PARTY SUPPLIERS SELECTED OR CHANGED
BY CREDIT ONE BANK, FDR, AND/OR THEIR VENDORS, IN THEIR SOLE DISCRETION, FOR THE FULFILLMENT OF SUCH CONSUMER
GOODS AND/OR SERVICES REDEEMED OR PURCHASED UTILIZING THE PROGRAM. IN ORDER TO FACILITATE FULFILLMENT OF THE
CONSUMER GOODS AND SERVICES WITH THE THIRD-PARTY SUPPLIERS, CREDIT ONE BANK, FDR AND/OR THEIR VENDORS MAY SEND
YOUR REQUIRED PERSONAL AND OTHER INFORMATION (INCLUDING, BUT NOT LIMITED TO FIRST NAME, LAST NAME, SHIPPING
ADDRESS, PHONE NUMBER AND EMAIL ADDRESS) TO THIRD-PARTY SUPPLIERS TO FACILITATE THE PURCHASE OR REDEMPTION. BY
PARTICIPATING IN THE PROGRAM AND REDEEMING POINTS FOR CONSUMER GOODS OR SERVICES, YOU THEREFORE AGREE THAT
CREDIT ONE BANK, FDR AND THEIR VENDORS WILL NOT BE HELD RESPONSIBLE AND YOU HEREBY RELEASE CREDIT ONE BANK, FDR
AND THEIR VENDORS FROM ANY LIABILITY FOR YOUR INFORMATION AFTER IT IS INPUT INTO THE REDEMPTION FULFILLMENT
SERVICES, FOR THE EXCLUSIVE BENEFIT OF, AND USE BY, THE THIRD-PARTY SUPPLIER, BY YOU AND CORRECTLY TRANSMITTED TO
11

THE THIRD-PARTY SUPPLIER FOR ORDER FULFILLMENT. AFTER YOUR INFORMATION IS PLACED INTO THE REDEMPTION FULFILLMENT
SERVICE, YOUR INFORMATION SHALL BE SUBJECT TO THE PRIVACY POLICY AND TERMS OF SUCH THIRD-PARTY SUPPLIER.
Changes
The Program may be changed (added to, modified or deleted) by us at any time, including without limitation, amendments to the definition of eligible
and non-eligible purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn rewards points.
Termination
We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will evaluate your
Account for any eligible rewards points as of the Program termination date. Provided that you meet all of the other Program Restrictions listed above
at that time, you will receive a distribution of the rewards points earned through the current billing period. Redemption of rewards points available upon
Account closure is subject to the redemption terms and conditions available at www.creditonebank.com/SixFlagsRewardsRedemptionTerms.
Limited Liability
Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a claim on your behalf,
in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by any occurrence outside
of our control; (3) any taxes that you incur as a result of receiving rewards points, merchandise and/or services received through rewards points
redemption, payment of which taxes will be your responsibility; (4) any merchandise or services you purchase and/or receive through rewards points
redemption, or for any direct, indirect or consequential damages with respect to the use of your Account. In any event, any liability that Credit One
Bank may have to you in connection with the Program shall be limited to the amount of any rewards points you have earned in this Program. The
Program and rewards points are void or limited where prohibited or restricted, respectively, by federal, state or local law.

SIX FLAGS® and related indicia TM; © 2021 Six Flags Theme Parks, Inc.
© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
12
Back to Top

C50-01707 6/21

D270

CARD AGREEMENT

D271

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

23.99%

APR for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$0

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
3

transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
4

Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
6

UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.

7

Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
8

•
•

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This document (“Supplement”) describes the terms and conditions of the Credit One Bank Six Flags Rewards Program (“Program”) and supplements
the Card Agreement that governs your Six Flags credit card account with rewards issued by Credit One Bank, N.A. (the “Account”). By using the
Account, you agree to participate in the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision,
if applicable, and this Supplement. In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the
Program, this Supplement controls.
Earning Six Flags Rewards
You earn rewards points for every dollar you spend for purchases using your Account minus returns, refunds, disputed charges, and fraudulent
transactions (“Net Eligible Purchases”) as follows:
•

3 points on eligible Six Flags purchases (See Merchant Categories below)
o Eligible purchases include purchases made at Six Flags theme and water park locations, within the United States, including parking,
admission, dining, and merchandise; purchases made at Six Flags’ web sites; and stays at the Six Flags Great Escape Lodge.
Purchases of Six Flags theme and water park ride photos or videos do not qualify. Purchases made through third party services do not
qualify.
o Non-eligible purchases, where you earn 1 point, include purchases made at Six Flags properties outside the United States, purchases
of ride photos or videos, and Six Flags purchases made through third-party services.

•

2 points on eligible gasoline, grocery, and lodging purchases (See Merchant Categories below)
o Gasoline purchases
▪ Eligible purchases include gasoline purchases made at gas stations and automated fuel dispensers.
▪ Non-eligible purchases, where you earn 1 point, include purchases for oil, propane, and purchases made at home heating
companies or at warehouse clubs (including but not limited to Sam’s Club and Costco).
o Grocery purchases
▪ Eligible purchases include purchases made at grocery stores and supermarkets; butcher shops, fish/seafood markets, and meat
markets; and convenience stores.
▪ Non-eligible purchases, where you earn 1 point, include purchases at drug stores; discount supercenters (including but not limited
to Wal-Mart and Target); warehouse clubs (including but not limited to Sam’s Club and Costco; and small stores like bakeries,
candy, nut, or confection stores.
o Lodging purchases
▪ Eligible purchases include purchases made at hotels, motels, inns, bed and breakfasts, and resorts.
▪ Non-eligible purchases, where you earn 1 point, include campgrounds, cruise lines, timeshares and hostels.

•

1 point on all other purchases, including the non-eligible purchases listed above, except as noted below.
▪ Non-eligible purchases, where you earn no points, include travelers checks, foreign currency purchases, money orders, wire
transfers, and similar cash-like transactions.

We round the Net Eligible Purchase amount to the nearest whole dollar and you must spend at least one dollar in Net Eligible Purchases with your
Account in order to earn points. For example, if you make an eligible purchase of $1.50, you are eligible to earn 2 points, if you make an eligible
purchase of $1.49, you are eligible to earn 1 point and if your purchase amount is $0.99 or less, you are not eligible to earn any points.
You do not earn rewards points on Cash Advances, Balance Transfers, interest and account fees, unauthorized charges, items returned for credit and
other similar charges. Points are posted to your Account within seven days after an eligible transaction posts to your Account. If your Account is in
default, as defined in your Card Agreement, at the time the points are to be posted, you WILL NOT receive the points. Rewards points have no cash
value until such time as they are redeemed in accordance with the Program. Points may not be transferred to any other person including through such
events as inheritance, bankruptcy, or divorce.
Point accumulation is not capped and you may have a negative points balance (because of returns and other post-transaction actions). If your Account
has a negative points balance, any newly earned points will be used to offset such negative points balance until such balance has been brought to
zero. As long as your Account is in good standing your points do not expire. Points are forfeited 30 days after your Account is closed by you or us. If
we find evidence of misuse, fraud, or the Account is in default, as defined in your Card Agreement, you will not be able to redeem points. Points from
separate accounts cannot be combined. Authorized Users earn points on the Account, but only the primary Cardholder may redeem points.
Merchant Categories
Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in accordance with the
applicable credit card network’s procedures based on the kinds of products and services primarily sold by the merchant. We have no control over
merchant codes. Please note:
10

•

•

•

We make every effort to include all relevant merchant codes in our reward point categories. However, even though a merchant or some of
the items that it sells may appear to fit within a rewards points category, the merchant may not have a merchant code in that category. When
this occurs, purchases with that merchant won’t qualify for rewards points in the category that they appear to fit, but will instead qualify for
the 1 point on all other purchases category.
Although a merchant or the items that it sells may appear to fit the rewards points categories, the merchant may or may not have or use an
eligible merchant code. Purchases made without an eligible code WILL NOT qualify for rewards points. A merchant with more than one
location may submit purchases using different codes, including codes that are not eligible under this Program. This means that purchases
from the same merchant at a different location may result in no rewards points.
Purchases submitted by you, an Authorized User, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a rewards points category if the technology is not set up to process
the purchase in that rewards points category.

Redeeming Rewards
Points may be redeemed for Six Flags products and services in the form of rewards vouchers. All point redemptions are subject to terms and conditions
in this Supplement and as set forth at www.creditonebank.com/SixFlagsRewardsRedemptionTerms. The number of points you need to redeem for Six
Flags products and services will be determined at redemption and may change without notice. The most up-to-date number of rewards points you
have available to redeem (which reflects any points adjustments, transfers, or redemptions) is available online or by calling Credit One Bank customer
service, and may differ from the available points shown on your last monthly billing statement.
Rewards vouchers are delivered digitally via email with a barcode that is to be scanned at participating Six Flags theme and water parks for the
fulfillment of the redemption. A valid email address is required to receive your redemption. It is your responsibility to provide and maintain a current
email address with us. You can update your email address in the “Settings” area of your online Account or by contacting Customer Service at the
number on the back of your credit card. Rewards vouchers are non-transferrable. Lost or stolen rewards vouchers cannot be replaced.
All redemptions for Six Flags products and services through the redemption site are final. Cancellations, returns, exchanges, or modifications are not
accepted or allowed through the redemption site.
Feedback. If you send or transmit any communications, comments, questions, suggestions, or related materials, whether by letter, email, telephone,
or otherwise (Feedback), suggesting or recommending changes to the Program or how rewards points are fulfilled, including, without limitation, new
features or functionality, you grant to us and any of our vendors a perpetual right to use the Feedback for our and their own respective internal business
purposes. Further, we, our service providers, vendors and any subcontractors disclaim any liability to you for any such use of Feedback for our or their
own respective internal business purposes.
Consumer Goods/Services Disclaimer. BY PARTICIPATING IN THE PROGRAM, YOU ACKNOWLEDGE AND AGREE THAT CREDIT ONE BANK,
FDR AND ITS VENDORS ARE ONLY PROVIDING THE PROGRAM TO EARN AND REDEEM POINTS AND NOT PROVIDING CONSUMER GOODS
OR SERVICES. CREDIT ONE BANK, FDR AND THEIR VENDORS ARE NOT INVOLVED IN WARRANTING ANY CONSUMER GOODS OR
SERVICES WHICH YOU MAY ACQUIRE UTILIZING THE PROGRAM AND REDEMPTION SERVICES. CREDIT ONE BANK, FDR AND THEIR
VENDORS DO NOT MAKE, AND AFFIRMATIVELY DISCLAIM, ANY AND ALL WARRANTIES, EXPRESS OR IMPLIED, WITH RESPECT TO SUCH
CONSUMER GOODS OR SERVICES, INCLUDING WITHOUT LIMITATION, ANY WARRANTY OF MERCHANTABILITY, SUITABILITY FOR A
PARTICULAR PURPOSE, OR AGAINST INFRINGEMENT. WARRANTIES FOR CONSUMER GOODS AND SERVICES ARE LIMITED TO THE
APPLICABLE THIRD-PARTY SUPPLIER’S WARRANTIES AND RETURN POLICIES. BY PARTICIPATING IN THE PROGRAM, YOU
ACKNOWLEDGE AND AGREE TO LOOK SOLELY TO THE APPLICABLE MERCHANT PROVIDING THE CONSUMER GOODS AND/OR
SERVICES REDEEMED OR PURCHASED BY YOU UTILIZING THE PROGRAM FOR ANY WARRANTY, REMEDY, OBLIGATION AND/OR
LIABILITY WITH RESPECT TO SUCH CONSUMER PRODUCTS AND/OR SERVICES. BY PARTICIPATING IN THE PROGRAM, YOU RELEASE
CREDIT ONE BANK, FDR AND THEIR VENDORS FROM ANY AND ALL LIABILITY WITH RESPECT TO SUCH CONSUMER GOODS AND
SERVICES.
Information Disclaimer. IN THE COURSE OF PROVIDING THE PROGRAM AND REDEMPTION SERVICE FOR CONSUMER GOODS AND/OR
SERVICES, CREDIT ONE BANK, FDR AND THEIR VENDORS MAY INTEGRATE WITH THIRD-PARTY SUPPLIERS SELECTED OR CHANGED
BY CREDIT ONE BANK, FDR, AND/OR THEIR VENDORS, IN THEIR SOLE DISCRETION, FOR THE FULFILLMENT OF SUCH CONSUMER
GOODS AND/OR SERVICES REDEEMED OR PURCHASED UTILIZING THE PROGRAM. IN ORDER TO FACILITATE FULFILLMENT OF THE
CONSUMER GOODS AND SERVICES WITH THE THIRD-PARTY SUPPLIERS, CREDIT ONE BANK, FDR AND/OR THEIR VENDORS MAY SEND
YOUR REQUIRED PERSONAL AND OTHER INFORMATION (INCLUDING, BUT NOT LIMITED TO FIRST NAME, LAST NAME, SHIPPING
ADDRESS, PHONE NUMBER AND EMAIL ADDRESS) TO THIRD-PARTY SUPPLIERS TO FACILITATE THE PURCHASE OR REDEMPTION. BY
PARTICIPATING IN THE PROGRAM AND REDEEMING POINTS FOR CONSUMER GOODS OR SERVICES, YOU THEREFORE AGREE THAT
CREDIT ONE BANK, FDR AND THEIR VENDORS WILL NOT BE HELD RESPONSIBLE AND YOU HEREBY RELEASE CREDIT ONE BANK, FDR
AND THEIR VENDORS FROM ANY LIABILITY FOR YOUR INFORMATION AFTER IT IS INPUT INTO THE REDEMPTION FULFILLMENT
SERVICES, FOR THE EXCLUSIVE BENEFIT OF, AND USE BY, THE THIRD-PARTY SUPPLIER, BY YOU AND CORRECTLY TRANSMITTED TO
THE THIRD-PARTY SUPPLIER FOR ORDER FULFILLMENT. AFTER YOUR INFORMATION IS PLACED INTO THE REDEMPTION FULFILLMENT
SERVICE, YOUR INFORMATION SHALL BE SUBJECT TO THE PRIVACY POLICY AND TERMS OF SUCH THIRD-PARTY SUPPLIER.
11

Changes
The Program may be changed (added to, modified or deleted) by us at any time, including without limitation, amendments to the definition of eligible
and non-eligible purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn rewards points.
Termination
We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will evaluate your
Account for any eligible rewards points as of the Program termination date. Provided that you meet all of the other Program Restrictions listed above
at that time, you will receive a distribution of the rewards points earned through the current billing period. Redemption of rewards points available upon
Account closure is subject to the redemption terms and conditions available at www.creditonebank.com/SixFlagsRewardsRedemptionTerms.
Limited Liability
Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a claim on your behalf,
in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by any occurrence outside
of our control; (3) any taxes that you incur as a result of receiving rewards points, merchandise and/or services received through rewards points
redemption, payment of which taxes will be your responsibility; (4) any merchandise or services you purchase and/or receive through rewards points
redemption, or for any direct, indirect or consequential damages with respect to the use of your Account. In any event, any liability that Credit One
Bank may have to you in connection with the Program shall be limited to the amount of any rewards points you have earned in this Program. The
Program and rewards points are void or limited where prohibited or restricted, respectively, by federal, state or local law.

SIX FLAGS® and related indicia TM; © 2021 Six Flags Theme Parks, Inc.
© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.

Back to Top

12

C50-01706 6/21

D271

CARD AGREEMENT

D272

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

24.40%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

24.40%

APR for Cash Advances

24.40%

How to Avoid Paying Interest on
Purchases

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Fees
Annual Fee

$95

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 21.15%. This
corresponds to a monthly periodic rate of 2.03333%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
3

transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
4

Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
6

UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.

7

Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
8

•
•

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Bank Wander Rewards Program (“Program”) and supplements the Card
Agreement that governs your Wander credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to
participate in the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this
Supplement. In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this
Supplement controls.

9

Earning Wander Rewards: You earn reward points for every dollar you spend for purchases using your Account minus returns, refunds, disputed
charges, and fraudulent transactions (“Net Eligible Purchases”) as follows:
• 5 points on eligible recreational and amusement park purchases (See Merchant Categories below)
o Eligible purchases include purchases made at national parks, amusement parks, sports promoters (professional live events),
theatrical producers, tourist attractions, aquariums and zoos.
o Non Eligible purchases where you earn 1 point include collegiate sporting events, golf courses, casinos, movie theaters, gyms
and non-industry entertainment merchant codes like cable, digital streaming and membership services.
• 3 points on eligible restaurant and lodging purchases (See Merchant Categories below)
o Eligible purchases include purchases made at restaurants, cafes, bars, nightclubs, lounges, fast food chains, hotels, motels,
inns, bed and breakfasts, resorts, campgrounds and motor home/RV rentals.
o Non-Eligible purchases where you earn 1 point include purchases made at grocery stores; discount supercenters (including but
not limited to Wal-Mart and Target); Warehouse clubs (including but not limited to Sam’s Club and Costco); small stores like
bakeries, candy, nut or confection stores; or stores that sell groceries and other products like drugstores and convenience stores;
cruise lines; timeshares; and hostels.
• 1 point on all other purchases, including the non-eligible purchases listed above.
o Non-Eligible purchases where you earn no points include travelers checks, foreign currency purchases, money orders, wire
transfers, and similar cash-like transactions.
We round the Net Eligible Purchase amount to the nearest whole dollar and you must spend at least one dollar in Net Eligible Purchases with your
Account in order to earn points. For example, if you make an eligible purchase of $1.50, you are eligible to earn 2 points, if you make an eligible
purchase of $1.49, you are eligible to earn 1 point and if your purchase amount is $0.99 or less, you are not eligible to earn any points.
You do not earn reward points on Cash Advances, Balance Transfers, interest and account fees, unauthorized charges, items returned for credit and
other similar charges. Points are posted to your Account within seven days after an eligible transaction posts to your Account. If your Account is in
default, as defined in your Card Agreement, at the time the points are to be posted, you WILL NOT receive the points. Reward points have no cash
value until such time as they are redeemed in accordance with the Program. Points may not be transferred to any other person including through
such events as inheritance, bankruptcy or divorce.
Point accumulation is not capped and you may have a negative points balance (because of returns and other post transaction actions). If your
Account has a negative points balance, any newly earned points will be used to offset such negative points balance until such balance has been
brought to zero. As long as your Account is in good standing your points do not expire. Points are forfeited 30 days after your Account is closed by
you or us. If we find evidence of misuse, fraud or the Account is in default, as defined in your Card Agreement, you will not be able to redeem points.
Points from separate accounts cannot be combined. Authorized Users earn points on the Account, but only the primary Cardholder
may redeem points.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’s procedures based on the kinds of products and services primarily sold by the merchant. We
have no control over merchant codes. Please note:
o We make every effort to include all relevant merchant codes in our reward point categories. However, even though a merchant or some of
the items that it sells may appear to fit within a reward points category, the merchant may not have a merchant code in that category.
When this occurs, purchases with that merchant won’t qualify for reward points in the category that they appear to fit, but instead will
qualify for the one point on all other purchases category.
o Although a merchant or the items that it sells may appear to fit the reward point categories, the merchant may not have or use an eligible
merchant code. Purchases made without an eligible code WILL NOT qualify for reward points. A merchant with more than one location
may submit purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the
same merchant at a different location may result in no reward points.
o Purchases submitted by you, an Authorized User, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a reward points category if the technology is not set up to process
the purchase in that reward points category.
Redeeming Wander Rewards: Points may be redeemed for cash back rewards, gift cards and other consumer goods and services. All point
redemptions are subject to terms and conditions set forth at www.creditonebank.com/WanderRewardsRedemptionTerms. Cash back rewards posted
to your Account as a statement credit may be requested in increments of 1,000 points. Each point redeemed is worth $0.01 (1,000 = $10) and may
change without notice. The number of points you need to redeem for other consumer goods and services will be determined at redemption and may
change without notice. The most up-to-date number of reward points you have available to redeem (which reflects any points adjustments, transfers,
or redemptions) is available online or at the customer service number and may differ from the available points shown on your last monthly billing
statement.
Feedback. If you send or transmit any communications, comments, questions, suggestions, or related materials, whether by letter, e-mail,
telephone, or otherwise (Feedback), suggesting or recommending changes to the Program or how rewards points are fulfilled, including, without
limitation, new features or functionality, you grant to us and any of our vendors a perpetual right to use the Feedback for our and their own,
10

respective internal business purposes. Further, we, our service providers, vendors and any subcontractors disclaim any liability to you for any such
use of Feedback for our or their own, respective internal business purposes.
Consumer Goods/Services Disclaimer. BY PARTICIPATING IN THE PROGRAM, YOU ACKNOWLEDGE AND AGREE THAT CREDIT ONE
BANK AND ITS VENDORS ARE ONLY PROVIDING THE PROGRAM TO EARN AND REDEEM POINTS AND NOT PROVIDING CONSUMER
GOODS OR SERVICES. CREDIT ONE BANK AND ITS VENDORS ARE NOT INVOLVED IN WARRANTING ANY CONSUMER GOODS OR
SERVICES WHICH YOU MAY AQUIRE UTILIZING THE PROGRAM AND REDEMPTION SERVICES. CREDIT ONE BANK AND ITS VENDORS
DO NOT MAKE, AND AFFIRMATIVELY DISCLAIM, ANY AND ALL WARRANTIES, EXPRESS OR IMPLIED, WITH RESPECT TO SUCH
CONSUMER GOODS OR SERVICES, INCLUDING WITHOUT LIMITATION, ANY WARRANTY OF MERCHANTABILITY, SUITABILITY FOR A
PARTICULAR PURPOSE, OR AGAINST INFRINGMENT. WARRANTIES FOR CONSUMER GOODS AND SERVICES ARE LIMITED TO THE
APPLICABLE THIRD PARTY SUPPLIER’S WARRANTIES AND RETURN POLICIES. BY PARTICIPATING IN THE PROGRAM, YOU
ACKNOWLEDGE AND AGREE TO LOOK SOLELY TO THE APPLICABLE MERCHANT PROVIDING THE CONSUMER GOODS AND/OR
SERVICES REDEEMED OR PURCHASED BY YOU UTILIZING THE PROGRAM FOR ANY WARRANTY, REMEDY, OBLIGATION AND/OR
LIABILITY WITH RESPECT TO SUCH CONSUMER PRODUCTS AND/OR SERVICES. BY PARTICIPATING IN THE PROGRAM, YOU RELEASE
CREDIT ONE BANK AND ITS VENDORS FROM ANY AND ALL LIABILITY WITH RESPECT TO SUCH CONSUMER GOODS AND SERVICES.
Information Disclaimer. IN THE COURSE OF PROVIDING THE PROGRAM AND REDEMPTION SERVICE FOR CONSUMER GOODS AND/OR
SERVICES, CREDIT ONE BANK AND/ OR ITS VENDORS MAY INTEGRATE WITH THIRD PARTY SUPPLIERS SELECTED OR CHANGED BY
CREDIT ONE BANK AND/OR ITS VENDORS, IN THEIR SOLE DISCRETION, FOR THE FULFILLMENT OF SUCH CONSUMER GOODS AND/OR
SERVICES REEDEMED OR PURCHASED UTILIZING THE PROGRAM. IN ORDER TO FACILITATE FULFILLMENT OF THE CONSUMER
GOODS AND SERVICES WITH THE THIRD PARTY SUPPLIERS, CREDIT ONE BANK AND/OR ITS VENDORS MAY SEND YOUR REQUIRED
PERSONAL AND OTHER INFORMATION (WHICH CAN INCLUDE, BUT IS NOT LIMITED TO FIRST NAME, LAST NAME, SHIPPING ADDRESS,
PHONE NUMBER AND EMAIL ADDRESS) TO THIRD PARTY SUPPLIERS TO FACILITATE THE PURCHASE OR REDEMPTION. BY
PARTICIPATING IN THE PROGRAM AND REDEEMING POINTS FOR CONSUMER GOODS OR SERVICES, YOU THEREFORE AGREE THAT
CREDIT ONE BANK AND ITS VENDORS WILL NOT BE HELD RESPONSIBLE AND YOU HEREBY RELEASE CREDIT ONE BANK AND ITS
VENDORS FROM ANY LIABLITY FOR YOUR INFORMATION AFTER IT IS INPUT INTO THE REDEMPTION FULFILLMENT SERVICES, FOR
THE EXCLUSIVE BENEFIT OF, AND USE BY, THE THIRD PARTY SUPPLIER, BY YOU AND CORRECTLY TRANSMITTED TO THE THIRD
PARTY SUPPLIER FOR ORDER FULFILLMENT. AFTER YOUR INFORMATION IS PLACED INTO THE REDEMPTION FULFILLMENT SERVICE,
YOUR INFORMATION SHALL BE SUBJECT TO THE PRIVACY POLICY AND TERMS OF SUCH THIRD PARTY SUPPLIER.
Program Restrictions: If you choose to redeem points for cash back rewards, you will receive a credit on the applicable statement (subject to the
redemption terms and conditions, available at www.creditonebank.com/WanderRewardsRedemptionTerms). Statement credits for cash back
rewards will reduce the balance on your Account but will not count as a payment. You will still be required to pay at least the Minimum Payment Due
as shown on your billing statement each month.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of eligible and non-eligible purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn reward
points.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible reward points as of the Program termination date. Provided that you meet all of the other Program Restrictions
listed above at that time, you will receive a distribution of the reward points earned through the current billing period. Redemption of reward points
available upon Account closure is subject to the redemption terms and conditions available at
www.creditonebank.com/WanderRewardsRedemptionTerms.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving reward points, cash back rewards, merchandise and/or
services received through reward points redemption, payment of which taxes will be your responsibility; (4) any merchandise or services you
purchase and/or receive through reward points redemption, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any
reward points you have earned in this Program. The Program, reward points and cash back rewards are void or limited where prohibited or
restricted, respectively, by federal, state or local law.

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

C50-01710 01/21

D272

CARD AGREEMENT

D273

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

24.40%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

24.40%

APR for Cash Advances

24.40%

How to Avoid Paying Interest on
Purchases

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Fees
Annual Fee

$0

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 21.15%. This
corresponds to a monthly periodic rate of 2.03333%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
 any Late Payment Fee for the current billing cycle;
 and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement

This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
3

transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees

See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
4

Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
 include your name, mailing address, and the last four digits of your Account number;
 specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
 provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
 send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.

6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).

Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights a
nd obligations only of the parties named in the arbitration, and shall not have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
7

administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
 Account information: Your name and Account number.
8




Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.

You must contact us:
 Within 60 days after the error appeared on your statement.
 At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
 We cannot try to collect the amount in question, or report you as delinquent on that amount.
 The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
 While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
 We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Cash Back Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Bank Wander Rewards Program (“Program”) and
supplements the Card Agreement that governs your Wander credit card account issued by Credit One Bank, N.A. (the
“Account”). By using the Account, you agree to participate in the Program. Your participation is subject to the terms of the
9

Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of a conflict between the Card Agreement and
this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Wander Rewards: You earn reward points for every dollar you spend for purchases using your Account minus returns, refunds, disputed
charges, and fraudulent transactions (“Net Eligible Purchases”) as follows:
 3 points on eligible recreational and amusement park purchases (See Merchant Categories below)
o Eligible purchases include purchases made at national parks, amusement parks, sports promoters (professional live events),
theatrical producers, tourist attractions, aquariums and zoos.
o Non-Eligible purchases where you earn 1 point include collegiate sporting events, golf courses, casinos, movie theaters, gyms
and non-industry entertainment merchant codes like cable, digital streaming and membership services.
 2 points on eligible restaurant and lodging purchases (See Merchant Categories below)
o Eligible purchases include purchases made at restaurants, cafes, bars, nightclubs, lounges, fast food chains, hotels, motels,
inns, bed and breakfasts, resorts, campgrounds and motor home/RV rentals.
o Non-Eligible purchases where you earn 1 point include purchases made at grocery stores; discount supercenters (including but
not limited to Wal-Mart and Target); Warehouse clubs (including but not limited to Sam’s Club and Costco); small stores like
bakeries, candy, nut or confection stores; or stores that sell groceries and other products like drugstores and convenience stores;
cruise lines; timeshares; and hostels.
 1 point on all other purchases, including the non-eligible purchases listed above.
o Non-Eligible purchases where you earn no points include travelers checks, foreign currency purchases, money orders, wire
transfers, and similar cash-like transactions.
We round the Net Eligible Purchase amount to the nearest whole dollar and you must spend at least one dollar in Net Eligible Purchases with your
Account in order to earn points. For example, if you make an eligible purchase of $1.50, you are eligible to earn 2 points, if you make an eligible
purchase of $1.49, you are eligible to earn 1 point and if your purchase amount is $0.99 or less, you are not eligible to earn any points.
You do not earn reward points on Cash Advances, Balance Transfers, interest and account fees, unauthorized charges, items returned for credit and
other similar charges. Points are posted to your Account within seven days after an eligible transaction posts to your Account. If your Account is in
default, as defined in your Card Agreement, at the time the points are to be posted, you WILL NOT receive the points. Reward points have no cash
value until such time as they are redeemed in accordance with the Program. Points may not be transferred to any other person including through
such events as inheritance, bankruptcy or divorce.
Point accumulation is not capped and you may have a negative points balance (because of returns and other post transaction actions). If your
Account has a negative points balance, any newly earned points will be used to offset such negative points balance until such balance has been
brought to zero. As long as your Account is in good standing your points do not expire. Points are forfeited 30 days after your Account is closed by
you or us. If we find evidence of misuse, fraud or the Account is in default, as defined in your Card Agreement, you will not be able to redeem points.
Points from separate accounts cannot be combined. Authorized Users earn points on the Account, but only the primary Cardholder
may redeem points.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’s procedures based on the kinds of products and services primarily sold by the merchant. We
have no control over merchant
codes. Please note:
 We make every effort to include all relevant merchant codes in our reward point categories. However, even though a merchant or some of
the items that it sells may appear to fit within a reward points category, the merchant may not have a merchant code in that category.
When this occurs, purchases with that merchant won’t qualify for reward points in the category that they appear to fit, but instead will
qualify for the one point on all other purchases category.
 Although a merchant or the items that it sells may appear to fit the reward point categories, the merchant may not have or use an eligible
merchant code. Purchases made without an eligible code WILL NOT qualify for reward points. A merchant with more than one location
may submit purchases using different codes, including codes that are not eligible under this Program. This means that Purchases from the
same merchant at a different location may result in no reward points.
 Purchases submitted by you, an Authorized User, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a reward points category if the technology is not set up to process
the purchase in that reward points category.
Redeeming Wander Rewards: Points may be redeemed for cash back rewards, gift cards and other consumer goods and services. All point
redemptions are subject to terms and conditions set forth at www.creditonebank.com/WanderRewardsRedemptionTerms. Cash back rewards posted
to your Account as a statement credit may be requested in increments of 1,000 points. Each point redeemed is worth $0.01 (1,000 = $10) and may
change without notice. The number of points you need to redeem for other consumer goods and services will be determined at redemption and may
change without notice. The most up-to-date number of reward points you have available to redeem (which reflects any points adjustments, transfers,
10

or redemptions) is available online or at the customer service number and may differ from the available points shown on your last monthly billing
statement.
Feedback. If you send or transmit any communications, comments, questions, suggestions, or related materials, whether by letter, e-mail,
telephone, or otherwise (Feedback), suggesting or recommending changes to the Program or how rewards points are fulfilled, including, without
limitation, new features or functionality, you grant to us and any of our vendors a perpetual right to use the Feedback for our and their own,
respective internal business purposes. Further, we, our service providers, vendors and any subcontractors disclaim any liability to you for any such
use of Feedback for our or their own, respective internal business purposes.
Consumer Goods/Services Disclaimer. BY PARTICIPATING IN THE PROGRAM, YOU ACKNOWLEDGE AND AGREE THAT CREDIT ONE
BANK AND ITS VENDORS ARE ONLY PROVIDING THE PROGRAM TO EARN AND REDEEM POINTS AND NOT PROVIDING CONSUMER
GOODS OR SERVICES. CREDIT ONE BANK AND ITS VENDORS ARE NOT INVOLVED IN WARRANTING ANY CONSUMER GOODS OR
SERVICES WHICH YOU MAY AQUIRE UTILIZING THE PROGRAM AND REDEMPTION SERVICES. CREDIT ONE BANK AND ITS VENDORS
DO NOT MAKE, AND AFFIRMATIVELY DISCLAIM, ANY AND ALL WARRANTIES, EXPRESS OR IMPLIED, WITH
RESPECT TO SUCH CONSUMER GOODS OR SERVICES, INCLUDING WITHOUT LIMITATION, ANY WARRANTY OF
MERCHANTABILITY, SUITABILITY FOR A PARTICULAR PURPOSE, OR AGAINST INFRINGMENT. WARRANTIES FOR CONSUMER GOODS
AND SERVICES ARE LIMITED TO THE APPLICABLE THIRD PARTY SUPPLIER’S WARRANTIES AND RETURN POLICIES. BY
PARTICIPATING IN THE PROGRAM, YOU ACKNOWLEDGE AND AGREE TO LOOK SOLELY TO THE APPLICABLE MERCHANT PROVIDING
THE CONSUMER GOODS AND/OR SERVICES REDEEMED OR PURCHASED BY YOU UTILIZING THE PROGRAM FOR ANY WARRANTY,
REMEDY, OBLIGATION AND/OR LIABILITY WITH RESPECT TO SUCH CONSUMER PRODUCTS AND/OR SERVICES. BY PARTICIPATING IN
THE PROGRAM, YOU RELEASE CREDIT ONE BANK AND ITS VENDORS FROM ANY AND ALL
LIABILITY WITH RESPECT TO SUCH CONSUMER GOODS AND SERVICES.
Information Disclaimer. IN THE COURSE OF PROVIDING THE PROGRAM AND REDEMPTION SERVICE FOR CONSUMER GOODS AND/OR
SERVICES, CREDIT ONE BANK AND/OR ITS VENDORS MAY INTEGRATE WITH THIRD PARTY SUPPLIERS SELECTED OR CHANGED BY
CREDIT ONE BANK AND/OR ITS VENDORS, IN THEIR SOLE DISCRETION, FOR THE FULFILLMENT OF SUCH CONSUMER GOODS AND/OR
SERVICES REEDEMED OR PURCHASED UTILIZING THE PROGRAM. IN ORDER TO FACILITATE FULFILLMENT OF THE CONSUMER
GOODS AND SERVICES WITH THE THIRD PARTY SUPPLIERS, CREDIT ONE BANK AND/OR ITS VENDORS MAY SEND YOUR REQUIRED
PERSONAL AND OTHER INFORMATION (WHICH CAN INCLUDE, BUT IS NOT LIMITED TO FIRST NAME, LAST NAME, SHIPPING ADDRESS,
PHONE NUMBER AND EMAIL ADDRESS) TO THIRD PARTY SUPPLIERS TO FACILITATE THE PURCHASE OR REDEMPTION. BY
PARTICIPATING IN THE PROGRAM AND REDEEMING POINTS FOR CONSUMER GOODS OR SERVICES, YOU THEREFORE AGREE THAT
CREDIT ONE BANK AND ITS VENDORS WILL NOT BE HELD RESPONSIBLE AND YOU HEREBY RELEASE CREDIT ONE BANK AND ITS
VENDORS FROM ANY LIABLITY FOR YOUR INFORMATION AFTER IT IS INPUT INTO THE REDEMPTION FULFILLMENT SERVICES, FOR
THE EXCLUSIVE BENEFIT OF, AND USE BY, THE THIRD PARTY SUPPLIER, BY YOU AND CORRECTLY TRANSMITTED TO THE THIRD
PARTY SUPPLIER FOR ORDER FULFILLMENT. AFTER YOUR INFORMATION IS PLACED INTO THE REDEMPTION FULFILLMENT SERVICE,
YOUR INFORMATION SHALL BE SUBJECT TO THE PRIVACY POLICY AND TERMS OF SUCH THIRD PARTY SUPPLIER.
Program Restrictions: If you choose to redeem points for cash back rewards, you will receive a credit on the applicable statement (subject to the
redemption terms and conditions, available at www.creditonebank.com/WanderRewardsRedemptionTerms). Statement credits for cash back
rewards will reduce the balance on your Account but will not count as a payment. You will still be required to pay at least the Minimum Payment Due
as shown on your billing statement each month.
Changes: The Program may be changed (added to, modified or deleted) by us at any time, including without limitation amendments to the definition
of eligible and non-eligible purchases. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn reward
points.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible reward points as of the Program termination date. Provided that you meet all of the other Program Restrictions
listed above at that time, you will receive a distribution of the reward points earned through the current billing period. Redemption of reward points
available upon Account closure is subject to the redemption terms and conditions available at
www.creditonebank.com/WanderRewardsRedemptionTerms.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving reward points, cash back rewards, merchandise and/or
services received through reward points redemption, payment of which taxes will be your responsibility; (4) any merchandise or services you
purchase and/or receive through reward points redemption, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any
reward points you have earned in this Program. The Program, reward points and cash back rewards are void or limited where prohibited or
restricted, respectively, by federal, state or local law.
11

© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
12
Back to Top

C50-01711 01/21

D273

CARD AGREEMENT

D275

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

24.40%

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$39

Transaction Fees
• Balance Transfer

Either $7 or 4% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR corresponds to a monthly periodic rate of 2.03333%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

Military Lending Act Protections
Covered Borrower: A Covered Borrower is a consumer who is entitled to the Limitations on Terms of Consumer Credit Extended to Service
Members and Dependents pursuant to a determination made in accordance with 32 C.F.R. 232.5(b).
Compliance with the Military Lending Act: This Agreement shall be interpreted to comply with the Military Lending Act, including its restrictions on
permissible loan terms and limitations on interest and fees. As a Covered Borrower: (a) the arbitration provision shall not apply to you, (b) the Duplicate
Statement Fee, the Sales Slip Request Fee, and the Replacement Card Fee shall not apply to you, and (c) any other provision of this Agreement that
is inconsistent with the Military Lending Act shall not apply to you.

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
2

Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
3

Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

4

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
5

•
•

provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.

Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
6

predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
7

If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.

8

Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
9

To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of all Net Purchases made with
your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges. We will post a statement
credit to your Account within seven days after the end of the month based on the Net Purchases made with your Account from the 27th of the previous
month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the time the credit is to be posted, you
WILL NOT receive the credit. Cash back rewards have no cash value.
Net Purchases: Net Purchases are Purchases minus any returns, disputed charges, unauthorized charges, illegal or fraudulent charges or other
credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One cash
back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time. We will give you prior notice to the extent required by law.
Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

10

American Express is a federally registered service mark of American Express. This credit card program is issued and administered by Credit One
Bank, N.A., pursuant to a license from American Express.
© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.

Back to Top

11

C50-01712 01/21

D275

CARD AGREEMENT

D276

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

24.40%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

24.40%

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$75

Transaction Fees
• Balance Transfer

Either $7 or 4% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR corresponds to a monthly periodic rate of 2.03333%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

Military Lending Act Protections
Covered Borrower: A Covered Borrower is a consumer who is entitled to the Limitations on Terms of Consumer Credit Extended to Service
Members and Dependents pursuant to a determination made in accordance with 32 C.F.R. 232.5(b).
Compliance with the Military Lending Act: This Agreement shall be interpreted to comply with the Military Lending Act, including its restrictions on
permissible loan terms and limitations on interest and fees. As a Covered Borrower: (a) the arbitration provision shall not apply to you, (b) the Duplicate
Statement Fee, the Sales Slip Request Fee, and the Replacement Card Fee shall not apply to you, and (c) any other provision of this Agreement that
is inconsistent with the Military Lending Act shall not apply to you.

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
2

Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
3

Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

4

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
5

•
•

provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.

Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
6

predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
7

If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.

8

Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
9

To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This Supplement describes the terms and conditions of the Credit One Cash Back Rewards Program (“Program”) and supplements the Card Agreement
that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you agree to participate in the Program.
Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of
a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of all Net Purchases made with
your Account. You do not earn cash back rewards on Cash Advances, Balance Transfers, interest, fees, and other charges. We will post a statement
credit to your Account within seven days after the end of the month based on the Net Purchases made with your Account from the 27th of the previous
month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the time the credit is to be posted, you
WILL NOT receive the credit. Cash back rewards have no cash value.
Net Purchases: Net Purchases are Purchases minus any returns, disputed charges, unauthorized charges, illegal or fraudulent charges or other
credits for such Purchases.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Purchase. Automatic
statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to pay at
least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made while
your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One cash
back rewards program.
Changes: The Program may be changed (added to, modified or deleted) by us at any time. We will give you prior notice to the extent required by law.
Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One may have to you in connection with the Program shall be limited to the amount of any cash back
rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively, by
federal, state or local law.

10

American Express is a federally registered service mark of American Express. This credit card program is issued and administered by Credit One
Bank, N.A., pursuant to a license from American Express.
© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.

Back to Top

11

C50-01713 01/21

D276

CARD AGREEMENT

D279

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

23.99%

APR for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$39

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
2

you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
3

For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
4

Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
5

partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
7

administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
8

In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This document (“Supplement”) describes the terms and conditions of the Credit One Bank Best Friends® Cash Back Rewards
Program (“Program”) and supplements the Card Agreement that governs your credit card account issued by Credit One Bank,
N.A. (the “Account”). By using the Account, you agree to participate in the Program. Your participation is subject to the terms
of the Card Agreement, including the arbitration provision, if applicable, and this Supplement. In the event of a conflict between
the Card Agreement and this Supplement, with respect to matters relating to the Program, this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit for purchases using your Account minus
returns, refunds, disputed charges and fraudulent transactions (“Net Eligible Purchases”), as follows:
•

5% cash back rewards on eligible pet shop and pet food and supply store purchases for the first $5,000 per calendar year in eligible pet shop
and pet food and supply store purchases, and then 1% thereafter.
o Certain Non-Eligible Purchases. The following types of purchases are not eligible for cash back rewards:
o Pet grooming, unless ancillary service at a pet shop or pet food and supplies store;
o Pet sitting and boarding, unless ancillary service at a pet shop or pet food and supplies store;
o Veterinary services; and
o Purchases made with PayPal, at a discount supercenter (including but not limited to Wal-Mart and Target), or at
warehouse clubs (including but not limited to Sam’s Club and Costco).

You do not earn cash back rewards on Cash Advances, Balance Transfers, unauthorized charges, items returned for credit, interest, fees, and other
charges. We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made
with your Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card
Agreement, at the time any credit is to be posted, you WILL NOT receive the applicable credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’s procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, purchases with that merchant won’t qualify for cash back rewards on purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible merchant code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one
location may submit purchases using different codes, including codes that are not eligible under this Program. This means that purchases
from the same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
Bank cash back rewards program.
Changes: The Program, including without limitation, eligible and non-eligible purchases, may be changed (added to, modified or deleted) by us at any
time without notice. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
10

responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

Best Friends Animal Society and any associated logos are trademarks of Best Friends Animal Society, and are used under license by Credit One
Bank.
© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
11
Back to Top

C50-01714 03/21

D279

CARD AGREEMENT

D280

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

23.99%

APR for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$0

Transaction Fees
• Balance Transfer

Either $10 or 5% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $10 or 5% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
1

Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
• 3.5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
• any Late Payment Fee for the current billing cycle;
• and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement
This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
3

transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees
See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
4

Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
• include your name, mailing address, and the last four digits of your Account number;
• specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
• provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
• send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

5

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
6

UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice

to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.

7

Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
8

•
•

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This document (“Supplement”) describes the terms and conditions of the Credit One Bank Best Friends® Cash Back Rewards Program (“Program”)
and supplements the Card Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account,
you agree to participate in the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable,
and this Supplement. In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program, this
Supplement controls.

9

Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit for purchases using your Account minus
returns, refunds, disputed charges and fraudulent transactions (“Net Eligible Purchases”), as follows:
•

5% cash back rewards on eligible pet shop and pet food and supply store purchases for the first $5,000 per calendar year in eligible pet shop
and pet food and supply store purchases, and then 1% thereafter.
o Certain Non-Eligible Purchases. The following types of purchases are not eligible for cash back rewards:
o Pet grooming, unless ancillary service at a pet shop or pet food and supplies store;
o Pet sitting and boarding, unless ancillary service at a pet shop or pet food and supplies store;
o Veterinary services; and
o Purchases made with PayPal, at a discount supercenter (including but not limited to Wal-Mart and Target), or at
warehouse clubs (including but not limited to Sam’s Club and Costco).

You do not earn cash back rewards on Cash Advances, Balance Transfers, unauthorized charges, items returned for credit, interest, fees, and other
charges. We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made
with your Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card
Agreement, at the time any credit is to be posted, you WILL NOT receive the applicable credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’s procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
• We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, purchases with that merchant won’t qualify for cash back rewards on purchases in that category.
• Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible merchant code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one
location may submit purchases using different codes, including codes that are not eligible under this Program. This means that purchases
from the same merchant at a different location may result in no cash back rewards.
• Purchases submitted by you, an authorized user, or the merchant through third-party payment accounts, mobile or wireless card readers,
online or mobile digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process
the purchase in that cash back rewards category.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement that has at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards will reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for Purchases made
while your Account is in default as defined within your Card Agreement. This Program excludes Accounts already enrolled in a different Credit One
Bank cash back rewards program.
Changes: The Program, including without limitation, eligible and non-eligible purchases, may be changed (added to, modified or deleted) by us at any
time without notice. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

10

Best Friends Animal Society and any associated logos are trademarks of Best Friends Animal Society, and are used under license by Credit One
Bank.
© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.

11
Back to Top

C50-01715 03/21

D280

CARD AGREEMENT

D281

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

23.99%

APR for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$49

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $29, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $29, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
1. 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
2. any Late Payment Fee for the current billing cycle;
3. and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement

This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
2

you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
3

For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees

See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
4

Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information
Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
1. include your name, mailing address, and the last four digits of your Account number;
2. specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
3. provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
4. send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
5

partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
6

No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).
†Notice

Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
7

administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.
Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
8

In your letter, give us the following information:
1. Account information: Your name and Account number.
2. Dollar amount: The dollar amount of the suspected error.
3. Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
1. Within 60 days after the error appeared on your statement.
2. At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
1. We cannot try to collect the amount in question, or report you as delinquent on that amount.
2. The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
3. While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
4. We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
1. If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
2.
3. If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you
a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we
think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

9

Rewards Program Supplement
This document (“Supplement”) describes the terms and conditions of the Credit One Bank WWE® Cash Back Rewards Program (“Program”) and
supplements the Card Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you
agree to participate in the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable,
and this Supplement. In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program,
this Supplement controls.
Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit for purchases using your Account minus
returns, refunds, disputed charges and fraudulent transactions (“Net Eligible Purchases”), as follows:
 3% cash back rewards on eligible internet, cable and satellite TV service, and mobile phone service purchases. Certain purchases in these
merchant categories may only qualify for 1% cash back rewards. See information on 1% cash back rewards and Merchant Categories.
 2% cash back rewards on eligible restaurant purchases Certain purchases in these merchant categories may only qualify for 1% cash back
rewards. See information on 1% cash back rewards and Merchant Categories.
 1% cash back rewards on all other purchases, including the purchases listed below:
o purchases made with Paypal
o grocery stores,
o discount supercenters (including but not limited to Wal-Mart and Target),
o warehouse clubs (including but not limited to Sam’s Club and Costco),
o small stores like bakeries, candy, nut, or confection stores, or
o stores that sell groceries and other products like drugstores and convenience stores.
You do not earn cash back rewards on the following types of transactions:
 Cash Advances,
 Balance Transfers,
 travelers checks, foreign currency, money orders, wire transfers, or similar cash-like transactions,
 unauthorized charges,
 items returned for credit,
 interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time any statement credit is to be posted, you WILL NOT receive the applicable statement credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’s procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
 We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, purchases with that merchant won’t qualify for cash back rewards on purchases in that category, but will
instead qualify for the 1% cash back rewards on all other purchases category.
 Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible merchant code. Purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one
location may submit purchases using different codes, including codes that are not eligible under this Program. This means that purchases
from the same merchant at a different location may result in no cash back rewards.
 Purchases submitted by you, an authorized user through third-party payment accounts, mobile or wireless card readers, online or mobile
digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process the purchase
in that cash back rewards category.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement with at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for purchases
made while your Account is in default as defined in your Card Agreement. This Program does not apply to Accounts already enrolled in a different
Credit One Bank rewards program.
Changes: The Program, including without limitation, eligible purchases, may be changed (added to, modified or deleted) by us at any time without
notice. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn cash back rewards.
10

Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

All WWE trademarks, logos and copyrights are the exclusive property of WWE and its subsidiaries.
© 2021 Credit One Bank, N.A. All rights reserved.
Credit One®, Credit One Bank®, and corresponding logos are federally registered trademarks.
Back to Top

11

C50-01716 04/21

D281

CARD AGREEMENT

D282

Pricing Summary
Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
(APR) for Purchases

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Balance Transfers

23.99%

ANNUAL PERCENTAGE RATE
(APR) for Cash Advances

23.99%

This APR will vary with the market based on the Prime Rate.
This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 24 days after the close of each billing cycle. We will not charge you any interest
on Purchases if you pay your entire balance by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers from the posting date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http:// www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$75 for the first year. After that $99 annually ($8.25 per month).

Transaction Fees
• Balance Transfer

Either $5 or 8% of the amount of each Balance Transfer, whichever is greater.

• Cash Advance

Either $5 or 8% of the amount of each Cash Advance, whichever is greater.

• Foreign Transaction

Either $1 or 3% of the amount of each purchase in U.S. dollars, whichever is greater.

Penalty Fees
• Late Payment

Up to $39*

• Returned Payment

Up to $39**

How We Will Calculate Your Balance: We use a method called “average daily balance (including new Purchases).” See your Card Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Agreement.
Authorized User Card Fee: If you request a card for an authorized user, we charge an Authorized User Card Fee of $19 annually. This fee will reduce
the amount of your available credit.
*Late Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D). Currently
the fee is $28, unless you incurred a Late Payment Fee during the prior six billing cycles. If you did, the fee is currently $39. This fee will not exceed
1

the related Minimum Payment that was due. We charge a Late Payment Fee to your Account if at least the Amount Due This Period (less any Late
Payment Fee for the current billing cycle) plus any Past Due Amount is not received by 5:00 p.m. PT on the Payment Due Date shown on your
statement.
**Returned Payment Fee: We will charge the maximum safe harbor amount, which is set annually in accordance with 12 C.F.R 1026.52(b)(1)(ii)(D).
If a payment is not honored upon first presentment, even if the payment is later honored, a Returned Payment Fee will be charged to your Account.
Currently, the fee is $28, unless you incurred a Returned Payment Fee in the prior six billing cycles. If you did, the fee is currently $39. This fee will
not exceed the related Minimum Payment that was due.
Additional Rate Information: The Purchase, Balance Transfer and Cash Advance APR equals the Prime Rate plus a margin of 20.74%. This
corresponds to a monthly periodic rate of 1.99917%.
Minimum Payments: You may pay the entire New Balance shown on your billing statement at any time. Each billing period you must pay at least the
Minimum Payment Due by the Payment Due Date shown on your billing statement. The Minimum Payment Due will be the sum of:
 5% of your outstanding balance, rounded up to the next whole dollar, or $30, whichever is greater;
 any Late Payment Fee for the current billing cycle;
 and any Past Due Amount (excluding any past due Late Payment Fees).

The Agreement

This Agreement, together with the Pricing Summary, is your contract with us.
Accepting this Agreement: You accept this Agreement when you use the Account. You may still reject this Agreement if you have not yet used the
Card, used the Account, or paid a fee after receiving a billing statement. To reject the Agreement, call us at 866-515-5721 or write us at Bank Card
Center, P.O. Box 95516, Las Vegas, NV 89193-5516. If you reject the Agreement, you are not responsible for any fees or charges.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers. You can reject the Arbitration Provision. See
“How to REJECT this agreement to arbitrate” in the Arbitration section. If you do not, it will be part of this Agreement.
Promise to Pay: You agree to pay us for all amounts due on your Account, including credit for Purchases, Balance Transfers, and Cash Advances,
as well as interest charges and fees. This includes charges made by Additional Cardholders and other Authorized Users.

Definitions
Account means the Credit One Bank card account under this Agreement.
Authorized User means any person you allow to use your Account or Card, including Additional Cardholders. If the Authorized User has been issued
a Card and you want to terminate the Authorized User, you must notify us by telephone or in writing.
Balance Transfer means a transaction we designate that allows you to use your Account to pay another creditor or yourself. Balance Transfers cannot
be used to pay us or our affiliates. A Balance Transfer will be subject to the terms of the Balance Transfer offer and this Agreement.
Card refers to one or more cards or access devices, including your Account number, that we give you or someone else with your authorization to get
credit under this Agreement.
Cardholder refers to each person with a card issued in their name.
Cash Advance means the use of your Account to obtain funds at a financial institution or the use of a Convenience Check.
Convenience Check means a check we issue to you to take a Cash Advance. You may not use these checks to pay us or our affiliates.
Purchase means the use of the Account to obtain goods or services.
Prime Rate means the highest U.S. Prime Rate in the Money Rates section of The Wall Street Journal on the 25th day of the month, or the next day
if that day is not a publication day. If The Wall Street Journal does not publish the U.S. Prime Rate, we may substitute another index.
we, us, our, and Credit One Bank refer to Credit One Bank, N.A., the issuer of your Card.
you, and your refer to each person who has applied for the Account and where appropriate, the Authorized User.
2

Features and Use of Your Account
Using Your Card: You may make Purchases wherever the Card is accepted. You may use the Account to obtain Cash Advances, but you may not
make more than two Cash Advance transactions per day and you may not obtain more than $200 in Cash Advances per day. You may use the Account
only for personal, family, or household purposes, and if your Account is used for any other purpose you are still responsible for such use. You may not
use the Account for business or commercial purposes. The Account may not be used for online or internet gambling or illegal purposes.
Your Credit Limit: We will tell you your credit limit. Keep your Account balance below your credit limit. If you do not, you must still pay us. We may
designate part of your credit limit as a Cash Advance limit and part as a Balance Transfer limit. We may change your credit limit(s) at any time, without
notice. You may use a portion of your credit limit for Cash Advances and Balance Transfers. Each Purchase, Cash Advance, and Balance Transfer
obtained will reduce the amount of available credit under your credit limit until it is repaid. We may delay increasing your available credit by the amount
of any payment that we receive for up to 12 calendar days.
Credit Limit Increase: To request a credit limit increase contact the Customer Service number on your statement. We may impose a fee for processing
the request.
Credit Authorizations: We may decline to authorize a transaction for any reason. We will not be liable to you if we decline a transaction or if anyone
refuses any use of your Card.
Automatic Billing: You may set up automatic billing with a merchant. You authorize us to provide an updated Account number or Card expiration date
to any merchant at our discretion. Contact the merchant to stop automatic billing.
Joint Accounts: If this is a joint account, each of you is responsible individually and together for all amounts owed. Each of you is responsible even if
the Account is used by only one of you. You will continue to be liable for the entire balance of the Account, even if your co-applicant is ordered by a
court to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your Account status will continue to be reported to
the credit reporting agencies under each of your names. The delivery of notices or billing statements to either of you serves as delivery to each of you.
We may rely on instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Electronic Access: Applications (apps) on electronic devices (such as mobile wallets) can store your Card and can be used to get credit under this
Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use. We are not responsible if you violate those
terms or for any consequences from violating those terms.
Additional Cardholder: At your request, we may, at our discretion, issue, in the name of another person, an additional Card on your Account. That
person is an Additional Cardholder, as well as an Authorized User. An Additional Cardholder has access to certain Account information including
balance, available credit and payment information. If you advise us that the Additional Cardholder is your spouse, information regarding the Account
will be provided to consumer reporting agencies in your name as well as in the name of the Additional Cardholder. By requesting that we add an
Additional Cardholder to your Account, you represent that you (1) have the consent of the Additional Cardholder to be added to the Account, (2) have
provided a copy of this Agreement to the Additional Cardholder, and (3) if the Additional Cardholder is your spouse, you have told the Additional
Cardholder that Credit One Bank will furnish credit information about them to the credit reporting agencies in connection with the Account. The
Additional Cardholder may report the Card lost or stolen and may remove him or herself from the Account.

Interest Rates and Interest Changes
Annual Percentage Rates (APRs): See the Pricing Summary for your APRs. The APR for Balance Transfers will be the same as the APR for standard
Purchases, unless a promotional rate applies.
Variable Rates: Your Pricing Summary indicates whether you have any variable APRs. Variable APRs are determined by adding to the Prime Rate
the number of percentage points (“margin”) specified in the Pricing Summary. Variable APRs will increase or decrease when the Prime Rate changes.
The APR change will take effect beginning with billing cycles that end on or after the first day of the month after the month in which the Prime Rate
changes. An increase in the APR will increase your interest charges and may increase your Minimum Payment Due.
Average Daily Balance Method (including new transactions): We calculate interest each billing cycle by first figuring the “average daily balance”
for each type of balance. Standard Purchases, standard Cash Advances, standard Balance Transfers, and each promotional offer, are all types of
balances.
For each type of balance, for each billing cycle, we start with the balance on the last day of your previous billing cycle. We subtract any unpaid interest.
This is the beginning balance each day. Each day of the billing cycle we subtract any new payments and credits applied to that type of balance. We
3

add any new transactions and fees for that type of balance. We add Purchases, Cash Advances, and Balance Transfers on the post date. We add
transaction fees on promotional rate and non-promotional rate Balance Transfers to the same type of balance as the transaction. We add all other fees
to the standard Purchase balance. This gives us the daily balance for that type of balance, except that if the daily balance is negative, we treat it as
zero. We then add up all of the daily balances and divide by the number of days in the billing cycle. This gives us the “average daily balance” for that
type of balance. We multiply the average daily balance by the applicable monthly periodic rate (the APR divided by 12). This gives us the interest
charged for that type of balance for that billing cycle. This interest is included in the Account balance on the last day of the billing cycle. The results for
all types of balances are then added together to determine the total interest charged that billing cycle.
When Interest Begins: We begin to impose interest on a transaction or fee from the day we add it to the daily balance. We continue to impose interest
until you pay the total amount you owe us. You can avoid paying interest on Purchases as described below. However, you cannot avoid paying interest
on Balance Transfers or Cash Advances.
How to Avoid Paying Interest on Purchases (“Grace Period”): If you pay the New Balance on your billing statement by the Payment Due Date
shown on that billing statement, we will not impose interest on new Purchases paid by the Payment Due Date on your current billing statement. The
Payment Due Date will be at least 24 days after the close of the billing cycle. If you have been paying your Account balance in full and thereby avoiding
interest on Purchases, but then do not pay the next New Statement Balance in full by the Payment Due Date, in that billing cycle we will start charging
interest on the unpaid portion of your balance.

Fees

See the Pricing Summary for additional Fee information.
Annual Fee: If your Account is subject to an Annual Fee, the amount and when it is billed is shown on the Pricing Summary. The Annual Fee is billed
to the Account until the Account is closed and the outstanding balance is paid in full. The Annual Fee is refundable as long as you cancel your Account
and have not used your card for any Purchases, Cash Advances, or Balance Transfers and you have not made a payment.
Credit Limit Increase Fee: If a fee is imposed for processing a Credit Limit increase request, we will tell you the amount of the fee at the time of your
request and before you agree to it.
Foreign Transaction Fee: We add this fee for each purchase made outside the U.S. (A purchase is made outside the U.S. unless it is made with a
U.S. merchant, processed completely in the U.S., and in U.S. dollars.) The fee is a percentage of the U.S. dollar amount of the purchase.
Optional Express Payment Service Fee: If a representative of ours helps expedite your payment, we may impose an Express Payment fee. You will
be informed of the amount of the fee before you complete the transaction.
Duplicate Statement Fee: If you request a duplicate copy of a monthly statement, for any purpose other than to assert a billing error, you will be
charged a fee of up to $10 for each statement copy requested.
Sales Slip Request Fee: If you request a copy of a sales slip, for any purpose other than to resolve a dispute about the charges on your Account, you
will be charged a fee of $6 for each sales slip copy requested.
Replacement Card Fee: If you request a replacement card, a Replacement Card Fee of up to $25 may be charged to your Account.

Payments
Minimum Payment Due: See the Pricing Summary for the minimum payment requirements.
Small Balances: As it is uneconomical for both you and us to process payments or maintain credits that are $1 or less in amount, you agree as follows:
(1) In any billing cycle in which you have had no transactions and your New Balance on the billing date is $1 or less, the balance will be rounded to
zero and you will not receive a bill for this amount. (2) In the event that you have a credit balance of $1 or less for two consecutive billing cycles, the
balance will be rounded to zero and you will not receive a refund of this amount.
Payment Instructions: You must pay us in U.S. dollars, in funds on deposit in the U.S. We credit your payments in accordance with the terms
contained on your billing statement. If you mail your payment to an address other than the address designated on your billing statement, there may be
a delay in processing and crediting the payment to your Account.
Irregular Payments: Any payment submitted in offer of settlement of a disputed debt, including any item containing a notation such as “paid in full,”
and any other item with a restrictive endorsement, must be sent to: Credit One Bank, P.O. Box 95516, Las Vegas, NV 89193-5516. We can accept
4

late payments, partial payments, and checks or other items with restrictive endorsements at any other address without losing any of our rights under
this Agreement.
Postdated Checks: You agree that we need not examine any payment check to confirm that it is not postdated and that we may deposit any postdated
check on the day we receive it.
Payment Allocation: We apply payments up to the Minimum Payment Due and credits at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment Due will be applied to balances with higher APRs first.

Collecting, Sharing, and Updating Information

Customer Privacy: We send you our Privacy Policy when you open your Account and thereafter in accordance with applicable law. It summarizes
the personal information we collect; how we safeguard its confidentiality and security; when it may be shared with others; and how you can limit our
sharing of this information. You accept the terms of our Privacy Policy when you use the Account. Contact us or visit CreditOne.com if you would like
a copy.
Information About You: You authorize us to obtain and/or use information about you from third parties and credit reporting agencies to: (1) verify
your identity and/or conduct investigative inquiries; (2) determine your income and credit eligibility; (3) review your Account and provide renewal of
credit; (4) verify your current credit standing in order to present future credit limit increases or decreases; (5) qualify you for and present additional lines
of credit or other offers; and (6) collect amounts owing on your Account. Upon request, we will tell you the name and address of any credit reporting
agency that provided us with information concerning you.
Furnishing Information: We may furnish information concerning your Account or credit file to consumer reporting agencies and others who may
properly receive that information. If you believe that information we furnished is inaccurate or incomplete, please write us at Credit One Bank, P. O.
Box 98873, Las Vegas, NV 89193-8873. Please include your name, address, home phone number and Account number.
Telephone Calls, Text Messages and Emails Regarding Your Account: You are providing express written permission and consent authorizing
Credit One Bank and our agents, servicers, contractors, subsidiaries, affiliates, officers, and other partners and employees to contact you at any phone
number (including mobile, cellular/wireless, or similar devices) or email address you provide at any time, for any lawful purpose. The ways in which we
may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded and artificial voice message, text/SMS message
or email. Phone numbers and email addresses you provide include those you give to us, those from which you, or someone acting on your behalf,
contact us or which we obtain through other means. If you provide a phone number for which you are not the owner, you confirm you are authorized
to provide that number. Such lawful purposes include, but are not limited to: obtaining information; activation of the card for verification and identification
purposes; account transactions or servicing related matters; suspected fraud or identity theft; collection on the Account; and providing information
about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing
communications to us, to or from any such number or email address, without reimbursement from us.
Communication Revocation: You may revoke your authorization for most communications. However, you cannot revoke authorization for fraud
related communications or legally required communications. To change your communication preferences or to revoke consent you must write us.
Please:
 include your name, mailing address, and the last four digits of your Account number;
 specify whether you are changing your preferences regarding mail, telephone calls, emails, and/or text or SMS messages;
 provide the specific phone number(s) and/or email address for which you are requesting communications to cease;
 send this written notice to: Credit One Bank, P.O. Box 98873, Las Vegas, NV 89193-8873.
Certain communication preferences can be changed on-line. Please log in to your Account to see if that option is available.
Telephone Monitoring: You agree that we (and our servicers, agents and contractors) may monitor and record any calls between you and us.
Updating Your Phone Number: Notify us immediately if you change mobile or cell phone numbers or plan to give your phone to someone else. It is
your responsibility to provide us with a true, accurate and complete mobile number and to maintain and update promptly any changes in this information.
You can update your mobile number by calling us at the phone number on the back of your Card.
Indemnification: If you provide telephone number(s) for which you are not the subscriber, or fail to notify us when you cease to be the subscriber for
a telephone number you previously gave us, you agree to indemnify us, our subsidiaries, affiliates, officers, agents, servicers, contractors, and other
partners and employees for any costs and expenses, including reasonable attorneys’ fees, incurred as a result of us contacting or attempting to contact
you at the number(s). Your obligation under this paragraph shall survive termination of the Agreement.

Account Closure
5

Default: You are in default under this Agreement if (1) bankruptcy or another insolvency proceeding is filed by or against you; (2) we reasonably
believe you are unable or unwilling to repay us; (3) you die or are legally incompetent or incapacitated; (4) you fail to comply with the terms of this
Agreement, including failing to make a required payment when due, exceeding your credit limit or using your Card or Account for an illegal transaction;
(5) you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem necessary; or (6) if you no longer
permanently reside in one of the 50 states or the District of Columbia. If you are in default, we may declare the entire Account balance immediately
due and payable without advance notice.
Collection Costs: If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include reasonable
attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
Closing Your Account: You may close your Account at any time. You will remain responsible for any amount you owe us under this Agreement. Any
joint Cardholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts owed. If your Account is subject to
an Annual Fee, the fee will continue to be charged until you pay your outstanding balance in full.
We may cancel, suspend or not renew your Card, Account, or access to the credit line at any time and for any reason without notice. If your Account
is closed by us, the Annual Fee will continue to be charged until you pay your outstanding balance in full.
However, when your Account is closed, if there is: (1) a debit balance of $1 or less, that balance will be rounded to zero and you will not be required
to pay this amount; or (2) a credit balance of $1 or less, that balance will be rounded to zero and this amount will not be refunded to you. The rounding
to zero may occur after your closing statement cycles, and you may not receive a statement reflecting the rounding.

Arbitration Agreement
PLEASE READ CAREFULLY—IMPORTANT—AFFECTS YOUR LEGAL RIGHTS
This agreement to arbitrate provides that you or we can require controversies or disputes between us to be resolved by BINDING ARBITRATION. You
have the right to REJECT this agreement to arbitrate by using the procedure explained below.
If you do not reject this agreement to arbitrate, you GIVE UP YOUR RIGHT TO GO TO COURT and controversies or disputes between us will be
resolved by a NEUTRAL ARBITRATOR INSTEAD OF A JUDGE OR JURY, using rules that are simpler and more limited than in a court. Arbitrator
decisions are subject to VERY LIMITED REVIEW BY A COURT. Arbitration will proceed INDIVIDUALLY— CLASS ACTIONS AND SIMILAR
PROCEDURES WILL NOT BE AVAILABLE TO YOU.
Agreement to Arbitrate: You and we agree that either you or we may, without the other’s consent, require that controversies or disputes between
you and us (all of which are called “Claims”), be submitted to mandatory, binding arbitration. This agreement to arbitrate is made pursuant to a
transaction involving interstate commerce, and shall be governed by, and enforceable under, the Federal Arbitration Act (the “FAA”), 9 U.S.C. §1 et
seq., and (to the extent State law is applicable), the laws of the State of Nevada.
For purposes of this agreement to arbitrate, “you” includes you, any co-applicant, any Authorized User (including Additional Cardholders), or anyone
else connected with you or claiming through you; and “we” or “us” includes Credit One Bank, N.A., all of its parents, subsidiaries, affiliates, successors,
predecessors, employees, and related persons or entities, and all third parties who are regarded as agents or representatives of us in connection with
the subject matter of the claim or dispute at issue.
Covered Claims: Claims subject to arbitration include, but are not limited to, any controversies or disputes arising from or relating in any way to your
Account; any transactions involving your Account; any disclosures made to you concerning your Account; any interest, charges, or fees assessed on
your Account; any service(s) or programs related to your Account; and, if permitted by the rules of the arbitration forum, any collection of debt related
to your Account. Claims also include controversies or disputes arising from or relating in any way to advertising, solicitations, or any application for,
approval of, or establishment of your Account. Claims subject to arbitration include any controversies or disputes based on any theory of law, whether
contract, tort, statute, regulation, common law, or equity, or whether they seek legal or equitable remedies. All Claims are subject to arbitration whether
they arose in the past, may currently exist, or may arise in the future. Arbitration will apply even if your Account is closed, you pay us in full any
outstanding debt you owe, or you file for bankruptcy. Also, controversies or disputes about the validity, enforceability, coverage, meaning, or scope of
this agreement to arbitrate or any part thereof are subject to arbitration and are for the arbitrator to decide. Any questions about what Claims are
subject to arbitration shall be resolved by interpreting this agreement to arbitrate in the broadest way the law will allow it to be enforced.
Claims Not Covered: Claims (whether brought initially or by counter or cross-claim) are not subject to arbitration if they are filed by you or us in a
small claims court, so long as the case remains in such court and only individual claims for relief are advanced in the case.
No Class Arbitration or Consolidation or Joinder of Parties: Class actions and other similar procedures in which individuals seek to represent
similarly situated individuals or seek relief on behalf of the general public, and consolidation or joinder of Claims (except for claimants on the same
account), are NOT available under this agreement to arbitrate. Claims in arbitration will proceed on an INDIVIDUAL basis only:
6

UNLESS YOU REJECT THIS AGREEMENT TO ARBITRATE, YOU AND WE WAIVE THE RIGHT TO ASSERT OR PARTICIPATE
IN A CLASS ACTION OR ANY REPRESENTATIVE OR CONSOLIDATED PROCEEDING IN COURT OR IN ARBITRATION.
The arbitrator shall have no authority to entertain any Claim as a class action or private attorney general action or on any other similar representative
basis, nor shall the arbitrator have any authority to consolidate or join Claims brought by separate claimants (except for claimants on the same account).
This also means that the arbitrator shall have no authority to make any award for the benefit of, or against, any person other than the individual who is
the named party.†
†Notice to California Account Holders: This agreement to arbitrate shall not be construed to prevent you from seeking in the arbitration the remedy
of public injunctive relief if (a) you reside in California, (b) you resided in California at the time you entered into this agreement to arbitrate, or (iii) the
billing address for your Account is a California address (hereafter, “California Account Holder”).

Initiation of Arbitration: The arbitration shall be administered by the American Arbitration Association (“AAA”) before a single arbitrator under the
AAA’s Consumer Arbitration Rules, or by a mutually agreeable administrator, before a single arbitrator, as modified by this arbitration provision.
Information about the arbitration process for AAA can be obtained from the AAA at www.adr.org. The arbitrator shall be selected from the AAA (or
mutually agreeable administrator) panel of neutrals then active on the roster maintained by the AAA (or mutually agreeable administrator) office located
in the city of or nearest to your billing address and, unless otherwise mutually agreed, the arbitrator shall be a retired federal judge, a retired state
appellate judge, a retired state trial judge, or a lawyer with at least 15 years of experience in that order of preference.
In the event that the AAA or mutually agreeable administrator is unable or unwilling to handle the Claim for any reason, then the matter shall be
arbitrated instead by a neutral arbitrator selected by agreement of the parties (or, if the parties cannot agree, selected by a court in accordance with
the FAA).
Arbitration Procedures and Applicable Law; Offer of Settlement: Unlike a lawsuit in state or federal court, arbitration is conducted by a private
organization that specializes in alternative dispute resolution. Disputes in arbitration are decided by a neutral arbitrator instead of a judge or jury. You
may represent yourself in arbitration, or you may be represented by a lawyer.
Under this agreement to arbitrate, a single arbitrator designated by the arbitration administrator will decide the Claim under applicable law. The arbitrator
is bound by the terms of this agreement to arbitrate. The AAA or mutually agreeable administrator will apply its code of procedures in effect at the time
the arbitration claim is filed. If there is a conflict between that code of procedures and this arbitration provision and/or any sections of this Card
Agreement, this arbitration provision and/or this Card Agreement will control. The arbitrator will honor all claims of privilege recognized by law. Subject
to the prohibition on class, representative, and consolidation procedures set forth above, the arbitrator will have the power to award to a party any
damages or other relief (including relief in equity) provided for under applicable law. That is, a party will be entitled to recover in arbitration any damages
or other relief that it could recover if it prevailed in a court proceeding. An arbitrator’s award shall consist of a written statement setting forth the
disposition of each Claim. At the request of any party, the arbitrator shall also set forth a written explanation of the essential findings and conclusions
on which the award is based. An arbitration award shall decide the rights and obligations only of the parties named in the arbitration, and shall not
have any bearing on another person or dispute.
If your Claim is for $10,000 or less, you may choose whether the arbitration will be conducted solely on the basis of documents, in a telephonic hearing,
or in an in-person hearing.
Any in-person hearing will take place in the federal judicial district that includes your billing address at the time the Claim is filed, unless the parties
agree to a different place.
The Arbitrator’s Decision: The arbitrator’s decision will be final and binding on the parties. A party can file a written appeal to the arbitration
administrator within thirty (30) days after an award is issued. The appeal will proceed before a panel of three neutral arbitrators designated by the
same arbitration administrator. The panel will decide anew all factual and legal issues, following the same rules of procedure, by majority vote any
aspect of the original decision objected to. The costs of such an appeal will be borne in accordance with the below paragraph entitled “Fees and Costs”.
Any review by a court shall be governed by the Federal Arbitration Act. Any final arbitration award will be binding on the named parties and enforceable
by any court having jurisdiction.
Fees and Costs: We will pay any costs that are required to be paid by us under the arbitration administrator’s rules of procedure. If you file the
arbitration, you will pay your share of the initial filing fee, unless you seek and qualify for a fee waiver under the applicable rules of the arbitration
administrator. The party filing an appeal shall be responsible for all filing fees and costs of the appeal unless prohibited by administrator’s rules of
procedure. All parties are responsible for their own attorney’s fees, expert fees and any other expenses, unless the arbitrator awards such fees or
expenses to you or us if allowed by applicable law.

7

Other Parties Subject to this Agreement to Arbitrate: In addition to you and us, the rights and duties described in this agreement to arbitrate apply
to: any third party co-defendant of a claim subject to this arbitration provision; all joint account holders, Additional Cardholders, and Authorized Users
of your Account(s).
How to REJECT this Agreement to Arbitrate: You can reject this agreement to arbitrate but only if we receive from you a written notice of rejection
within 45 days after it was first provided to you. To reject this agreement to arbitrate you must send the notice of rejection to: Credit One Bank, Attention:
Arbitration Opt Out, P. O. Box 98873, Las Vegas, NV 89193-8873. Rejection notices sent to any other address will not be accepted or effective. If you
decide to reject this agreement to arbitrate in writing, your notice must state that you reject this agreement to arbitrate and include your name, address,
account number, and personal signature. Rejection of arbitration will not affect your other rights or responsibilities under this Card Agreement.
Survival, Severability, and Amendment of Terms:
Survival. This agreement to arbitrate shall survive changes in the Agreement and termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any transfer or sale of your Account, or amounts owed on your Account, to another person or entity.
Severability. If any part or parts of your agreement to arbitrate are declared unenforceable, then such specific part or parts shall be of no force or effect
and shall be severed, but the remainder of this agreement to arbitrate shall continue in full force and effect. If, however, the entire agreement to arbitrate
or your waiver of the right to bring or participate in a class or representative action or in consolidation procedures is unenforceable, then the agreement
to arbitrate shall be of no force or effect. Notwithstanding the preceding sentence, with respect to California Account Holders, if arbitration is
unenforceable, in whole or in part, you and we agree to resolve any Claim by a judicial reference proceeding as described above.
Amendment in Writing Only. This agreement to arbitrate may not be amended, severed, or waived, except as expressly provided in the Agreement or
in a written agreement between you and us.

Other Information
Transactions in Foreign Currencies: If you make a transaction at a merchant that settles in a currency other than U.S. dollars, Mastercard
International Incorporated or Visa Incorporated will convert that charge into a U.S. Dollar amount. That conversion will be done at a rate selected by
Mastercard or Visa from the range of rates available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Mastercard or Visa itself receives, or the government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the processing date may differ from the rate that would have been used on the purchase date or on the date the transaction
is posted to your Account. You agree to pay the converted amount, including any charges for the conversion that may be imposed as described above.
Changes to Your Agreement: The rates, fees and terms of this Agreement may change and we may add or delete any term to this Agreement,
consistent with applicable law. We will give you advance written notice of these changes and a right to reject the change, if required by law.
Unauthorized Use: Notify us immediately if your Card is lost or stolen or you suspect that someone is using your Card or Account without your
permission.
Assignment: We may assign any or all of our rights and obligations under this Agreement. You may not assign any of your rights or obligations under
this Agreement.
No Waiver: We will not lose our rights under this Agreement because we delay or do not enforce them.
Governing Law: This Agreement is governed by and interpreted in accordance with the laws applicable to national banks, and, where no such laws
apply, by the laws of the State of Nevada, excluding the conflicts of law provisions thereof, regardless of your state of residence.
Conformance with Law; Severability: If any part of this Agreement conflicts with applicable law, that provision will be considered modified to conform
to applicable law. If any part of this Agreement is invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration Provision.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the Billing Inquiries address on the statement.
In your letter, give us the following information:
 Account information: Your name and Account number.
 Dollar amount: The dollar amount of the suspected error.
 Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
8

You must contact us:
 Within 60 days after the error appeared on your statement.
 At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
 We cannot try to collect the amount in question, or report you as delinquent on that amount.
 The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
 While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
 We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
or operate the company that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the Billing Inquiries address shown on your
statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you of our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

Rewards Program Supplement
This document (“Supplement”) describes the terms and conditions of the Credit One Bank WWE® Cash Back Rewards Program (“Program”) and
supplements the Card Agreement that governs your credit card account issued by Credit One Bank, N.A. (the “Account”). By using the Account, you
agree to participate in the Program. Your participation is subject to the terms of the Card Agreement, including the arbitration provision, if applicable,
and this Supplement. In the event of a conflict between the Card Agreement and this Supplement, with respect to matters relating to the Program,
this Supplement controls.
9

Earning Cash Back Rewards: You earn cash back rewards in the form of an automatic statement credit equal to 1% of eligible purchases using
your Account minus returns, refunds, disputed charges and fraudulent transactions (“Net Eligible Purchases”) as follows:
 Eligible Purchases: Eligible purchases are purchases from merchants in the following categories (see Merchant Categories below):
o internet, cable and satellite TV service,
o mobile phone service, and
o restaurants.
 Non-eligible Purchases and Transactions: You do not earn cash back rewards on the following transactions and types of merchants:
o Paypal,
o grocery stores,
o discount supercenters (including but not limited to Wal-Mart and Target),
o warehouse clubs (including but not limited to Sam’s Club and Costco),
o small stores like bakeries, candy, nut, or confection stores,
o stores that sell groceries and other products like drugstores and convenience stores,
o Cash Advances,
o Balance Transfers,
o travelers checks, foreign currency, money orders, wire transfers, or similar cash-like transactions,
o unauthorized charges,
o items returned for credit, or
o interest, fees, and other charges.
We will post a statement credit to your Account within seven days after the end of the month based on the Net Eligible Purchases made with your
Account from the 27th of the previous month to the 26th of the current month. If your Account is in default, as defined in your Card Agreement, at the
time the statement credit is to be posted, you WILL NOT receive the applicable statement credit. Cash back rewards have no cash value.
Merchant Categories: Merchants who accept credit cards are assigned a merchant code, which is determined by the merchant or its processor in
accordance with the applicable credit card network’s procedures based on the kinds of products and services they primarily sell. We have no control
over merchant codes. Please note:
 We make every effort to include all relevant merchant codes in our cash back rewards categories. However, even though a merchant or
some of the items that it sells may appear to fit within a cash back rewards category, the merchant may not have a merchant code in that
category. When this occurs, purchases with that merchant won’t qualify for cash back rewards on purchases in that category.
 Although a merchant or the items that it sells may appear to fit the cash back rewards categories, the merchant may not have or use an
eligible merchant code. purchases made without an eligible code WILL NOT qualify for cash back rewards. A merchant with more than one
location may submit purchases using different codes, including codes that are not eligible under this Program. This means that purchases
from the same merchant at a different location may result in no cash back rewards.
 Purchases submitted by you, an authorized user through third-party payment accounts, mobile or wireless card readers, online or mobile
digital wallets, or similar technology will not qualify in a cash back rewards category if the technology is not set up to process the purchase
in that cash back rewards category.
Program Restrictions: You will receive an automatic cash back rewards credit on each statement with at least one Net Eligible Purchase.
Automatic statement credits for cash back rewards reduce the balance on your Account but will not count as payments. You will still be required to
pay at least the Minimum Payment Due as shown on your billing statement each month. You WILL NOT earn cash back rewards for purchases
made while your Account is in default as defined in your Card Agreement. This Program does not apply to Accounts already enrolled in a different
Credit One Bank rewards program.
Changes: The Program, including without limitation, eligible and non-eligible purchases and transactions, may be changed (added to, modified or
deleted) by us at any time without notice. We will give you prior notice to the extent required by law. Any revisions may affect your ability to earn
cash back rewards.
Termination: We may suspend or terminate the Program or your participation in the Program at any time without prior notice. In such event, we will
evaluate your Account for any eligible cash back rewards as of the Program termination date. Provided that you meet all of the other Program
Restrictions listed above at that time, you will receive a distribution of the cash back rewards earned during the current billing period in the form of a
statement credit.
Limited Liability: Unless otherwise required by law, this Program, or our Card Agreement with you, we will not be liable to you or anyone making a
claim on your behalf, in connection with: (1) any change or termination of the Program; (2) any loss, damage, expense or inconvenience caused by
any occurrence outside of our control; (3) any taxes that you incur as a result of receiving cash back rewards, payment of which taxes will be your
responsibility; (4) any merchandise or services you purchase, or for any direct, indirect or consequential damages with respect to the use of your
Account. In any event, any liability that Credit One Bank may have to you in connection with the Program shall be limited to the amount of any cash
10

back rewards you have earned in this Program. The Program and cash back rewards are void or limited where prohibited or restricted, respectively,
by federal, state or local law.

All WWE trademarks, logos and copyrights are the exclusive property of WWE and its subsidiaries.
© 2021 Credit One Bank, N.A. All Rights Reserved.
Credit One®, Credit One Bank® and corresponding logos are federally registered trademarks.
11
Back to Top

C50-01717 04/21

D282

